<html>
<title> - EXAMINING EPA'S REGULATORY OVERREACH</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  EXAMINING EPA'S REGULATORY OVERREACH

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              July 9, 2015

                               __________

                           Serial No. 114-29

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
                              ____________
                              
                              
                         U.S. GOVERNMENT PUBLISHNING OFFICE
97-569PDF                       WASHINGTON :2016                         
         
________________________________________________________________________________________              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfd8cfd0ffdccacccbd7dad3cf91dcd0d291">[email&#160;protected]</a>  
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL                    ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                            
                            C O N T E N T S

                              July 9, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     6
    Written Statement............................................     7

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     8
    Written Statement............................................     9

                               Witnesses:

The Honorable Gina McCarthy, Administrator, U.S. Environmental 
  Protection Agency
    Oral Statement...............................................    10
    Written Statement............................................    13

Discussion.......................................................    18

             Appendix I: Answers to Post-Hearing Questions

The Honorable Gina McCarthy, Administrator, U.S. Environmental 
  Protection Agency..............................................    78

                          Appendix II: Slides

Slide submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    94

Slides submitted by Representative Randy Hultgren, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    95

Slides submitted by Representative Jim Bridenstine, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    97

Slides submitted by Representative Bill Johnson, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    99

Slide submitted by Representative Brian Babin, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   104

Slides submitted by Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   105

Slides submitted by Representative Barry Loudermilk, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   108

Slide submitted by Representative Ralph Lee Abraham, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   110

            Appendix III: Additional Material for the Record

Documents submitted by Representative Donna F. Edwards, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   112

Documents submitted by Representative Mo Brooks, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   140

Additional slides submitted by Representative Randy Hultgren, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   133

Documents submitted by Representative Randy Hultgren, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   142

Documents submitted by Representative Randy K. Weber, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   156

Documents submitted by Representative Steve Knight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   209

Documents submitted by Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   294

Documents submitted by Representative Barry Loudermilk, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   334

Document submitted by Representative Ralph Lee Abraham, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   339

 
                  EXAMINING EPA'S REGULATORY OVERREACH

                              ----------                              


                         THURSDAY, JULY 9, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    And welcome to today's hearing titled ``Examining EPA's 
Regulatory Overreach.'' I'm going to recognize myself for five 
minutes to give an opening statement, and then the Ranking 
Member.
    Over the last year, the Environmental Protection Agency has 
released some of the most expensive and expansive regulations 
in its history. These rules will cost billions of dollars, 
burden American families, and diminish the competitiveness of 
American industry around the world. Today's hearing will 
examine this unprecedented regulatory agenda and the manner in 
which EPA has used secret science, questionable legal 
interpretations, and flawed analysis to promote these rules.
    A glaring example is the President's Power Plan. This plan 
is nothing more than a power grab to give the government more 
control over Americans' daily lives. These regulations stifle 
economic growth, destroy American jobs, and increase energy 
prices. That means everything will cost more, from electricity 
to gasoline to food, which disproportionately hurts low-income 
Americans. Even EPA data shows that this regulation would 
reduce sea-level rise by only 1/100th of an inch, the thickness 
of three sheets of paper.
    This rule represents massive costs without significant 
benefits. In other words, it's all pain and no gain. EPA also 
seeks to impose stricter ozone standards. Once again, this 
comes with few benefits. In fact, EPA's own figures show that 
since 1980, ozone levels have decreased by 33 percent, and 
today's air quality will continue to improve with the expected 
development of practical new technologies.
    Last week, the Supreme Court issued a ruling that is an 
important step towards reining in the extreme actions of the 
EPA. It ruled that the EPA must consider the costs of its 
decisions and weigh those costs against any potential benefits. 
For two years, the Committee requested the voluntary production 
of the data EPA uses to justify Clean Air Act regulations. The 
EPA's refusal to provide the data led the Science Committee to 
issue its first subpoena in 21 years to retrieve that 
information. Earlier this year, the Committee was forced to 
issue a second subpoena to obtain information related to 
Administrator McCarthy's deletion of almost 6,000 text messages 
sent and received on her official agency mobile devices. The 
Administration claimed that all but one was personal. Most 
recently, the Committee requested information and documents 
related to the EPA's development of the Waters of the U.S. Rule 
and the Agency's inappropriate lobbying of outside 
organizations to generate grassroots support. The Committee was 
again forced to notice its intention to issue a subpoena for 
the information. Following this latest notice, EPA has begun to 
produce a limited number of documents to the Committee. 
However, producing documents in bits and pieces after months or 
years of delay are not the actions of an open and transparent 
Administration. They are the actions of an agency and 
administration that has something to hide.
    Earlier this year, the House passed H.R. 1030, The Secret 
Science Reform Act. This legislation requires the EPA to base 
its regulations on publically available data. Why would the EPA 
want to hide this information from the American people? The EPA 
has a responsibility to be open and transparent with the people 
it serves and whose money it spends. I hope the Administrator 
will tell us today she will produce the data and other 
information the Committee has requested. Then she will help the 
President keep his pledge to maintain an open and transparent 
Administration.
    [The prepared statement of Chairman Smith follows:]

                    Prepared Statement of Committee
                        Chairman Lamar S. Smith

    Over the last year, the Environmental Protection Agency (EPA) has 
released some of the most expensive and expansive regulations in its 
history. These rules will cost billions of dollars, burden American 
families and diminish the competitiveness of American industry around 
the world.
    Today's hearing will examine this unprecedented regulatory agenda 
and the manner in which EPA has used secret science, questionable legal 
interpretations, and flawed analysis to promote these rules.
    A glaring example is the president's Power Plan. This plan is 
nothing more than a ``Power Grab'' to give the government more control 
over Americans' daily lives.
    These regulations stifle economic growth, destroy American jobs, 
and increase energy prices. That means everything will cost more--from 
electricity to gasoline to food, which disproportionately hurts low 
income Americans.
    Even EPA data shows that this regulation would reduce sea level 
rise by only 1/100th of an inch, the thickness of three sheets of 
paper. This rule represents massive costs without significant benefits. 
In other words, it's all pain and no gain.
    EPA also seeks to impose stricter ozone standards. Once again, this 
comes with few benefits. In fact, EPA's own figures show that since 
1980, ozone levels have decreased by 33 percent. And today's air 
quality will continue to improve with the expected development of 
practical new technologies.
    Last week, the Supreme Court issued a ruling that is an important 
step towards reining in the extreme actions of the EPA. It ruled that 
the EPA must consider the costs of its decisions and weigh those costs 
against any potential benefits.
    For two years, the Committee requested the voluntary production of 
the data EPA uses to justify Clean Air Act regulations. The EPA's 
refusal to provide the data led the Science Committee to issue its 
first subpoena in 21 years to retrieve that information.
    Earlier this year, the Committee was forced to issue a second 
subpoena to obtain information related to Administrator McCarthy's 
deletion of almost 6,000 text messages sent and received on her 
official agency mobile device. The Administration claimed that all but 
one was personal.
    Most recently, the Committee requested information and documents 
related to the EPA's development of the Waters of the U.S. rule and the 
agency's inappropriate lobbying of outside organizations to generate 
grassroots support.
    The Committee was again forced to notice its intention to issue a 
subpoena for the information. Following this latest notice, EPA has 
begun to produce a limited number of documents to the Committee.
    However, producing documents in bits and pieces after months or 
years of delay are not the actions of an open and transparent 
Administration. They are the actions of an agency and administration 
that has something to hide.
    Earlier this year, the House passed H.R. 1030, ``The Secret Science 
Reform Act.'' This legislation requires the EPA to base its regulations 
on publically-available data. Why would the EPA want to hide this 
information from the American people?
    The EPA has a responsibility to be open and transparent with the 
people it serves and whose money it spends.
    I hope the Administrator will tell us today she will produce the 
data and other information the Committee has requested. Then she will 
help the president keep his pledge to maintain an open and transparent 
administration.

    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, Ms. Johnson, is 
recognized for hers.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
and welcome, Administrator McCarthy. I want to thank you for 
being here today, and please take back to the employees of EPA 
my gratitude for their hard work and dedication.
    EPA's job is as hard as it is important. For two 
generations, we've relied on EPA to be the one federal agency 
to protect the public and the environment from the pollution 
that comes with being an industrial society. Standing against 
you are corporations that have built their profits on a 
business model that viewed rivers, lakes, oceans, and the sky 
as their dumping grounds. However, two generations of economic 
growth and innovation have shown us that we can clean up the 
environment and grow our economy.
    If we were to rely just on the Majority's assertions, we 
would think everything EPA does is wrong. For example, the 
Chairman has on a number of occasions cast EPA as a secretive 
organization setting out an aggressive regulatory agenda that 
ignores public comment and throttles the American economy. In 
fact, the reality of the situation is far different than the 
caricature. The reality is that the Obama Administration has 
done far more than the previous one to make sure that the water 
we drink and the air we breathe are clean. The Administration 
is pursuing a pro-health-oriented environmental agenda that 
includes reducing carbon emissions and slowing the path of 
global warming. These actions are immensely popular with the 
vast majority of Americans.
    You know what else is popular? The economic results that 
the Obama Administration has delivered. As of January, the 
economy had gained almost five times more jobs under President 
Obama than it did during the presidency of George W. Bush. 
Corporate profits are nearly double and stock prices have grown 
proportionately.
    This may come as news to my friends on the other side of 
the aisle, but we are seeing EPA actually enforce the law--
something that the prior Administration was reluctant to do--
while also producing jobs and profits. It turns out that these 
are not mutually exclusive outcomes. Now the Chairman is trying 
to paint a picture of EPA as being engaged in secret dealings 
with the environmental community. He has made much of the 
Administrator's deleting text messages, the use of private 
email by EPA employees, and the use of social media to reach 
out to Americans to let them know of regulatory proposals.
    The truth is that no other agency in our jurisdiction has 
had to develop a more public and publicly discussed, agenda 
than EPA.
    This Committee is not expert in regulatory processes, so 
perhaps the Majority is unaware of the multiple public 
listening sessions, the hundreds of formal filings, and the 
hundreds or thousands of comments that EPA gets and processes 
in their regulatory actions. It takes years and years of effort 
for EPA to move a regulation from a proposal to a final rule. 
You have to ignore all that public comment to believe that 
there is something secretive about EPA's rulemaking.
    Finally, the use of social media to communicate with the 
American public is nothing more than recognition of how our 
society communicates these days. I suspect every Member of the 
Committee uses Twitter and Facebook and the internet to 
communicate with our constituents and the broader public. 
Engaging the public and providing opportunities to shape 
regulation appears to me to be a positive step towards a more 
democratic government.
    In the past few years, I've heard many members of the 
Majority complain that EPA needs to listen more to the public 
as they move proposals forward. However, the public consists of 
more than regulated industry with their high-priced lobbyists, 
and so I cannot see how using social media does not fit with 
the broad belief of Members on both sides of the aisle that 
people should have a voice in policymaking.
    Let me close, Administrator McCarthy, by encouraging you to 
not let the investigative theater of this hearing get to you. 
There are some in think tanks and industry lobby shops, and 
perhaps even on this Committee, whose mission seems to be to 
attack the reputation of the agency as a way to slow your work. 
However, it is vitally important that EPA keep working to 
protect public health and improve our environment. The agency 
has been doing a remarkable job on that score, and I hope and 
trust you will not lose sight of the importance of your great 
public task.
    Thank you, and I yield back.
    [The prepared statement of Ms. Johnson of Texas follows:]

                    Prepared Statement of Committee
                  Ranking Member Eddie Bernice Johnson

    Thank you, Mr. Chairman. And, welcome, Administrator McCarthy. I 
want to thank you for being here today. Please take back to the 
employees of EPA my gratitude for their hard work and dedication. EPA's 
job is as hard as it is important. For two generations, we have relied 
on EPA to be the one federal agency to protect the public and the 
environment from the pollution that comes with being an industrial 
society. Standing against you are corporations that have built their 
profits on a business model that viewed rivers, lakes, oceans and the 
sky as their dumping grounds. However, two generations of economic 
growth and innovation have shown us that we can clean up the 
environment and grow our economy.
    If we were to rely just on the Majority's assertions we would think 
everything EPA does is wrong. For example, the Chairman has on a number 
of occasions cast EPA as a secretive organization setting out an 
aggressive regulatory agenda that ignores public comment and throttles 
the American economy.
    In fact, the reality of the situation is far different than that 
caricature.
    The reality is that the Obama Administration has done far more than 
the previous one to make sure that the water we drink and the air we 
breathe are clean. The Administration is pursuing a pro-health oriented 
environmental agenda that includes reducing carbon emissions and 
slowing the path of global warming. These actions are immensely popular 
with the vast majority of Americans.
    You know what else is popular? The economic results the Obama 
Administration has delivered.
    As of January, the economy had gained almost five times more jobs 
under President Obama than it did during the presidency of George W. 
Bush. Corporate profits are nearly double and stock prices have grown 
proportionately.
    This may come as news to my friends on the other side of the aisle, 
but we are seeing EPA actually enforce the law--something that the 
prior Administration was reluctant to do--while also producing jobs and 
profits. It turns out that these are not mutually exclusive outcomes.
    Now the Chairman is trying to paint a picture of EPA as being 
engaged in secret dealings with the environmental community.
    He has made much of the Administrator's deleting text messages, the 
use of private email by EPA employees, and the use of social media to 
reach out to Americans to let them know of regulatory proposals.
    The truth is that no other agency in our jurisdiction has to 
develop a more public, and publicly-discussed, agenda than does EPA.
    This Committee is not expert in regulatory processes, so perhaps 
the Majority is unaware of the multiple public listening sessions, the 
hundreds of formal filings, and the hundreds or thousands of comments 
that EPA gets and processes in their regulatory actions. It takes years 
and years of effort for EPA to move a regulation from a proposal to a 
final rule. You have to ignore all that public comment to believe that 
there is something secretive about EPA's rulemaking.
    Finally, the use of social media to communicate with the American 
public is nothing more than recognition of how our society communicates 
these days. I suspect every Member of the Committee uses Twitter and 
Facebook and the internet to communicate with our constituents and the 
broader public.
    Engaging the public and providing opportunities to shape regulation 
appears to me to be a positive step towards a more democratic 
government. In the past few years, I have heard many members of the 
Majority complain that EPA needs to listen more to the public as they 
move proposals forward.
    However, the public consists of more than regulated industry with 
their high-priced lobbyists, and so I cannot see how using social media 
does not fit with the broad belief of Members on both sides of the 
aisle that people should have a voice in policymaking.
    Let me close, Administrator McCarthy, by encouraging you to not let 
the investigative theater of this hearing get to you. There are some in 
think tanks and industry lobby-shops, and perhaps even on this 
Committee, whose mission seems to be to attack the reputation of the 
agency as a way to slow your work. However, it is vitally important 
that EPA keep working to protect public health and improve our 
environment. The agency has been doing a remarkable job on that score, 
and I hope and trust you will not lose sight of the importance of your 
great public task.
    Thank you and I yield back.

    Chairman Smith. Thank you, Ms. Johnson.
    Our witness today is the Honorable Gina McCarthy, 
Administrator of the Environmental Protection Agency. Prior to 
her appointment as Administrator, she was the Assistant 
Administrator for EPA's Office of Air and Radiation. Previously 
she served as the Commissioner of the Connecticut Department of 
Environmental Protection. During her career, which spans over 
30 years, she has worked at both the state and local levels on 
environmental issues and helped coordinate policies on energy, 
transportation, and the environment. Administrator McCarthy 
received a bachelor of arts degree in social anthropology from 
the University of Massachusetts and a master's of science in 
environmental health engineering and planning from Tufts 
University.
    Administrator McCarthy, we welcome you and look forward to 
your comments, and if you'll begin?

        TESTIMONY OF HON. GINA MCCARTHY, ADMINISTRATOR,

                ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Thank you, Chairman Smith and Ranking Member 
Johnson and Members of the Committee for inviting me here to 
testify on the Environmental Protection's regulatory efforts.
    The mission of EPA is protection of public health and the 
environment, and the regulatory efforts are in furtherance of 
those goals. We're guided in meeting those goals by science and 
by the law, which serve as the backbone of each of the Agency's 
actions. I will focus my comments today on providing more 
detail on three rules, which will hopefully provide tremendous 
benefit, not only to share this information but tremendous 
benefit to the public health and the environment.
    Approximately 117 million Americans, which is one in three 
people, get their drinking water from streams that lacked clear 
protection, and about 33 million Americans fish, swim, and boat 
in waters that were vulnerable to pollution. Recently, the 
agency finalized the Clean Water Rule, which will help to 
protect those waters which are vital to our health and our 
economy.
    What the Clean Water Rule does is simple: it protects clean 
water, and it provides clarity on which waters are actually 
covered by the Clean Water Act so they can be effectively 
protected from pollution and destruction. The rule provides 
clearer definitions to establish what waters are jurisdictional 
and what waters are not, and it places boundaries for the first 
time that limit the need for case-specific analysis. It makes 
clear that this rule only applies when someone intends to 
pollute or destroy a water, because only then does the need for 
a federal permit arise. This rule not only maintains current 
statutory exemptions from normal agricultural activities, it 
expands regulatory exclusions to make it clear the rule does 
not add any additional permitting requirements on agriculture.
    In developing the rule, we held more than 400 meetings with 
stakeholders across the country, reviewed over one million 
public comments, and we listened carefully to perspectives from 
all sides. In addition to the Clean Water Rule, the Agency is 
in the process of completing two significant air pollution 
rules.
    Ozone NAAQS--because the air we breathe is so important to 
our overall health and well-being, the Clean Air Act requires 
EPA to review the National Ambient Air Quality Standards every 
five years to make sure that they continue to protect public 
health with an adequate margin of safety. Based on the law, a 
thorough review of the science, the recommendations of the 
Agency's independent science advisers, and the assessment of 
EPA scientists and technical experts, EPA issued a proposed 
rule in November of last year, taking comment on strengthening 
the current standard of 75 parts per billion to within a range 
of 65 to 70 so that we could adequately protect Americans' 
health and welfare. We invited comments on all aspects of the 
proposal, including an alternative level as low as 60 parts per 
billion, and acknowledging interest among some stakeholders in 
offering comment on retaining the existing standard. The Agency 
is currently reviewing the comments we received, and we will 
issue a final rule by October 1st of this year.
    Our Clean Power Plan: This summer EPA will be finalizing 
the Clean Power Plan, which will cut carbon pollution from the 
power sector, which is the largest stationary source of 
CO<INF>2</INF> emissions in the country. In crafting this 
proposal, EPA sought to provide a range of flexibilities that 
would cut carbon emissions while maintaining affordable 
electric power and safeguarding system reliability. Climate 
change is affecting communities all across the United States 
now, and impacts will increase in the future, burdening our 
children and grandchildren with health and economic challenges. 
EPA's unprecedented public outreach effort and the 4.3 million 
comments we received have provided a tremendous amount of 
information, and we expect to make changes to the proposal to 
address many of the issues that have been raised. A key 
consideration of EPA that was reinforced by many stakeholders 
both before the proposal and during the comment period is the 
need to design the rule in a way that respects both the urgency 
of dealing with climate change as well as the time it takes to 
plan and invest in the electricity sector in ways that ensure 
both reliability and affordability. We've paid close attention 
to both of those core concerns as well as other comments, and 
will finalize a rule that takes them into account.
    Again, let me thank the Committee for inviting me to speak 
on the Agency's efforts to use the best available science to 
implement our Nation's environmental laws so that we can 
adequately and effectively protect public health and the 
environment.
    I look forward to taking your questions.
    [The prepared statement of Ms. McCarthy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Smith. Thank you, Administrator McCarthy, and let 
me say that because of the interest today and the time 
limitation and expected votes and how many Members are present, 
I'm going to need to strictly enforce the five minute rule even 
on myself, but we're not going to start the five minutes until 
I start asking my questions.
    Administrator McCarthy, my first question, and this will 
not surprise you, goes to the Secret Science Reform Act that I 
introduced that passed the House and that has passed the 
relevant Committee in the Senate. President Obama's own Science 
Advisor, John Holdren, testified before the Committee and said 
absolutely the data on which regulatory decisions and other 
decisions are based should be made available to the Committee 
and should be made public. Why don't you agree with the 
President's Science Advisor, and why don't you agree that this 
data that you used to justify these regulations should be made 
public?
    [Slide.]
    As you know, the bill doesn't take a position on any 
regulation. We're not making a judgment call. We're just saying 
the American people and other scientists deserve to see this 
data. I'm hoping you've changed your mind, and if so, would 
welcome that comment.
    Ms. McCarthy. Well, Mr. Chairman, let me first say that EPA 
totally supports both transparency as well as a strong peer-
reviewed independent science process, but the bill, I'm afraid 
I don't think will get us there. We've had conversations about 
this before, Mr. Chairman. The way in which our science works 
is for scientists to develop the science----
    Chairman Smith. But why not make this information public? 
Why not make it publically available?
    Ms. McCarthy. The information that you're asking us to 
reveal is revealing publicly identifiable information.
    Chairman Smith. Right. Now, you and I both know, and we 
talked about this many times, that information would be 
redacted, and I agree that it should be redacted, so why can't 
you release the information after it's been redacted?
    Ms. McCarthy. I think the fundamental difference of opinion 
we have, sir, is, I don't actually need the raw data in order 
to develop science. That's not how it's done.
    Chairman Smith. I understand, but why don't you give us the 
data that you have and why can't you get that data? Surely, you 
have the data that you based the regulations upon.
    Ms. McCarthy. Well, EPA has the authority and the need to 
actually get information that we've provided to you. We do not 
have----
    Chairman Smith. But you're saying two different things. 
You're saying you can't give us the information because it's 
personal, then you're saying you don't have the information. 
Which is it?
    Ms. McCarthy. Well, when we receive the information, we're 
not allowed to release it, and there is much information that 
we are not--that we do not have the authority to----
    Chairman Smith. The President's Science Advisor is saying--
--
    Ms. McCarthy. --weaken our ability to do----
    Chairman Smith. You've got the President's Science Advisor 
saying you should make it public. I'm willing to say we'll be 
happy to redact all the personal information. There is no good 
reason why other scientists can't review it. There's no good 
reason why I don't think that the American people shouldn't see 
it either.
    Ms. McCarthy. We are absolutely in line with the Science 
Advisor. The Science Advisor, however, isn't indicating that 
every study that EPA looks at to determine--to have a body of--
--
    Chairman Smith. I'm not saying every study. I'm just saying 
the studies and the data that you relied upon to try to 
justify----
    Ms. McCarthy. But that is the body of data that we did not 
generate. That is generated in science and peer review.
    Chairman Smith. I wish the EPA would follow--you know, the 
Ranking Member said you have nothing to hide and yet it looks 
to me like you're hiding a lot from the American people, and 
maybe we just have to disagree on that.
    Ms. McCarthy. Mr. Chairman, we are just protecting people's 
privacy----
    Chairman Smith. Again, there's ways to do that, and every 
other agency does it except for the EPA. You can redact the 
information. If we're not going to agree, I regret that, but I 
think it----
    Ms. McCarthy. Okay.
    Chairman Smith. --makes the EPA look bad.
    On the Clean Power Plan, former Obama Administration 
Assistant Secretary Charles McConnell said at best it will 
reduce global temperature by only 1/100th of a degree Celsius. 
At the same time, it's going to increase the cost of 
electricity. That's going to hurt the lowest-income Americans 
the most. How do you justify such an expensive, burdensome, 
onerous rule that's really not going to do much good, and isn't 
this all pain and no gain?
    Ms. McCarthy. No, sir, I don't agree with you. If you look 
at the RIA we did, the Regulatory Impact Analysis, you would 
see it's enormously beneficial. The value of this rule----
    Chairman Smith. Do you consider 1/100th of a degree to be 
enormously beneficial?
    Ms. McCarthy. The value of this rule is not measured in 
that way. It is measured in showing strong domestic action 
which can actually trigger global action to address what is----
    Chairman Smith. Do you disagree with my 1/100th of a degree 
figure? Do you disagree with the 1/100th of a degree----
    Ms. McCarthy. I'm not disagreeing that this action in and 
of itself will not make all the difference we need to address 
climate action, but what I'm saying is, if we don't take action 
domestically, we will never get started----
    Chairman Smith. But if you're looking at the results, the 
results can't justify the cost and the burden that you're 
imposing on the American people, in my judgment.
    Ms. McCarthy. Actually, this is a cost-beneficial rule.
    Chairman Smith. We're obviously going to disagree on that 
as well.
    Ms. McCarthy. Okay.
    Chairman Smith. My next question goes to the production of 
documents, and I appreciate in the last couple weeks you've 
been a little bit more forthcoming, but my question is, when 
can we expect to get all the documents that we have either 
requested or subpoenaed?
    Ms. McCarthy. Well, let me begin by saying EPA is committed 
to transparency and the true and faithful compliance with----
    Chairman Smith. Can you give me a date when you will 
produce the documents that we've asked for?
    Ms. McCarthy. There are a number of documents, some of 
which we're still discussing with the staff, and----
    Chairman Smith. And is there any kind of a deadline or date 
that you can give us when we will get those documents?
    Ms. McCarthy. I'm more than happy to have staff continue 
those discussions, sir, and if we're not moving at a pace you 
want----
    Chairman Smith. But those discussions haven't led to the 
production of documents. We can have discussions forever. If 
you're not willing to give me a date by which you're in good 
faith going to try to give us the documents, then I can't 
believe that the EPA is acting in good faith. So is it the end 
of this month? Is it the end of next month? When is it----
    Ms. McCarthy. Sir, you have a number of requests into us, 
and I want to make sure that I do not give you a date that I 
cannot achieve. I will talk----
    Chairman Smith. But give me a target date, any target date.
    Ms. McCarthy. I can't tell you that until your staff begins 
to discuss with us, which they are.
    Chairman Smith. You know, to me, this just continues a 
pattern of obstruction that we've been seeing for a couple of 
years now, and it would be easy for you to say I'll do my best 
to get it for you in the next 30 days or whatever. The fact 
that you're not willing to do that is disappointing. And again, 
we're talking about largely with these regulations, it's all 
pain and no gain. I don't see the----
    Ms. McCarthy. Mr. Chairman, we will be able to----
    Chairman Smith. --impact it's going to have that's 
particularly beneficial.
    Ms. McCarthy. --to respond as quickly as we possibly can, 
and we'll make every effort to do that. I'm just trying to 
avoid giving you a date that anticipates what your own staff--
--
    Chairman Smith. Like I say, I just wanted a target date, a 
good-faith date, and unfortunately, I'm not hearing that date.
    I thank you for your testimony today, and we'll now go to 
the Ranking Member, and I recognize her for her questions.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. I 
might remind you, you went one minute over.
    Chairman Smith. The Ranking Member is correct. I just--that 
has been confirmed, and she gets an additional minute, but 
she's the last person to get an additional minute.
    Ms. Johnson of Texas. Ms. McCarthy, the House is in the 
process of passing an appropriations bill that cuts your 
Agency's budget by more than $750 million. It includes an 
amendment by the Chairman to cut your office and funding of the 
Office of Legislative Affairs based on a continuing pattern of 
obstruction and delay of Committee's requests. I believe the 
Chairman has signed or cosigned 11 document request letters to 
your Agency in the first 26 weeks of this Congress, basically a 
letter every other week. And each of these letters have been 
either a new request or an expansion of the previous request. 
Now, I have three questions, and I'll ask them all at one time.
    What is your count of the letters from this Committee and 
from Congress as a whole? How many documents have you provided 
the Committee to date, pages or documents, however you keep 
track? And finally, can you describe the impact of the cuts and 
the policy riders in the House Interior appropriations bill 
would have on your agency?
    Ms. McCarthy. Well, since January 1st of this year, we have 
received 10 letters and one subpoena from this Committee. We've 
generated 13 written responses and sent out over 15,000 pages 
of documents responsive to the Committee's request, and we're 
continuing to make production of documents to the Committee. 
We've held approximately 10 conference calls and communicated 
by email or phone with Committee staff on over 35 occasions. So 
we continue to try to be as responsive as we can, recognizing 
our commitment to transparency and the important work of this 
Committee.
    In terms of the budget cuts, the budget cuts that are 
proposed in the appropriations bill and a variety of amendments 
that have been added would seriously threaten the ability of 
EPA to do its core work. Now, I understand that there are 
disagreements in moving forward with some rules like our Clean 
Power Plan to address the challenge of carbon pollution or our 
new ozone standard to protect public health, but this goes well 
beyond that to impact our ability to deliver clean water, clean 
air, healthy land, work with states, support their efforts. 
This would be a devastating proposal in terms of disallowing us 
to move forward with the real problems we're facing today and 
would be a serious problem in terms of rolling back all of the 
work that we'll be unable to accomplish because there'd be no 
boots on the ground anymore.
    Ms. Johnson of Texas. Thank you. Now, I have seen grocery 
carts of documents rolled in here from your agency on research 
that was not done by the federal government on--that was done 
over 25 years ago as related to tobacco and lung disease. Are 
you still being badgered for the information that you don't 
have?
    Ms. McCarthy. Well, part of the challenge with the Secret 
Science bill is that it asks us to gather information we have 
no authority to gather, and it asks us to release information 
where I cannot protect people's personal privacy or 
confidential business information in order to release that 
publicly. And frankly, the way in which science works in this 
country is, we don't look at--the scientists don't exchange all 
the raw data although they can and they often do, but they 
don't have to in order to do scientifically credible, 
independent peer review, which is the core of how this country 
has done science forever.
    Ms. Johnson of Texas. Isn't it true that the American 
Cancer Society did that research independently of the federal 
government?
    Ms. McCarthy. Well, the two issues that really started this 
concern about secret science had to do with the development of 
basically studies that were developed by the American Cancer 
Society and Harvard, two not unknown or well thought of or 
fully thought of entities, and they had information that we 
sought. We were given the information we had the authority to 
gather. They offer opportunities for that raw data to be 
reviewed in one-on-one review by researchers but it is--they 
are cohort studies. They're individuals that are followed for 
many years. It is--they're great studies, we rely on it, but 
they are so filled with personal information that it would be 
impossible to redact that and share, and so we're doing the 
best we can to get the information out to people that we're 
allowed to release but in no way does the lack of access to raw 
data preclude us from being--from relying on these studies and 
many others that have been the core of how we look at 
developing National Ambient Air Quality Standards.
    Ms. Johnson of Texas. Thank you very much. My time is 
expired.
    Chairman Smith. Thank you, Ms. Johnson.
    Ms. Johnson of Texas. Oh, wait a minute. Did I get an extra 
minute?
    Chairman Smith. You do get an extra minute.
    Ms. Johnson of Texas. Let me ask one more thing then. What 
do you think this Committee will do with all that data when 
they get it? We're not researchers. We're just a legislative 
committee.
    Ms. McCarthy. Well, I think----
    Ms. Johnson of Texas. I mean, we have it, and we haven't 
done anything with it yet, but you're still getting badgered 
for more and more. What, in your opinion, is this of value to 
us? I haven't figured it out myself.
    Ms. McCarthy. Well, I think that one of the reasons why we 
rely on peer-reviewed science is to allow raw data and science 
to be done by the scientists, and my job is to rely on their 
judgment and to make sure that I follow all of the practices 
that Congress has laid out to rely on peer-reviewed science. I 
do not know of what value raw data is to the general public but 
I certainly will provide any information that I have the 
authority to provide and I'll do it in a way that still 
protects people's interests in the work of our agency.
    Ms. Johnson of Texas. Thank you.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Oklahoma, Mr. Lucas, is recognized for 
his questions.
    Mr. Lucas. Thank you, Chairman Smith, and I think it's 
worth noting the comments from Chairman of the EPA Science 
Advisory Board that stated that data used to justify 
regulations should be made publicly available and that all data 
going into making conclusions in the scientific studies should 
be made available, and similarly, I think it's worth 
remembering the President's Science Advisory's testimony before 
the Committee that regulatory decisions and other decisions are 
based--should be available to the Committee and made public. I 
think we should remember that.
    Now, having said that, Administrator, is the EPA's use of 
non-public scientific data consistent with the Agency's 
scientific integrity policy? Are you doing things that are 
consistent with your own policy on scientific integrity?
    Ms. McCarthy. Yes, sir, we are.
    Mr. Lucas. Can you--and I'll be honest with you, 
Administrator. Coming from a rural area, I'm a little sensitive 
about the Waters of the United States rule. Can you guarantee 
me and this Committee that all data supporting the final WOTUS 
rule will be 100 percent publicly available?
    Ms. McCarthy. Actually, the docket--it was published in the 
Federal Register just a short time ago. All of the data that 
went into our connectivity study, our science study, is already 
publicly available and the technical documents are provided in 
the public----
    Mr. Lucas. In a particular area or two that goes with the 
waters of the United States rule, have you made public how the 
EPA developed the 4,000 feet of high tide line or the ordinary 
high water mark number in the final rule but was not in the 
proposed rule? Or for instance, the 1,500 feet within a 100-
year floodplain number in the final rule? Or all the waters 
located within 100 feet of an ordinary high water mark 
identified as navigable? Have those--has that information been 
made available in what you've provided?
    Ms. McCarthy. It is available in the docket, and the good 
thing about attracting a million comments is, it allows us to 
make changes between proposal and final that are based on 
better science, better understanding of how the agencies have 
been managing these programs for years and that's what we 
relied on, both the knowledge and the expertise of our staff, 
the information that we received from the public and comments 
and the science that's available to us.
    Mr. Lucas. Well, I hope that the information you say that 
is available is indeed available and continue to be added to. I 
would just simply observe that like many Members of this 
Committee and the public out there, I think the Chairman of the 
Science Advisory Board and, for that matter, the President's 
Science Advisor make very good points.
    Ms. McCarthy. And we follow----
    Mr. Lucas. Years ago, I was told as a young legislator that 
there's a fine line between doing things for people and doing 
things to people. You and the Agency may believe you're doing 
things for people but there's a perception out there across the 
country, whether it's in ag or construction and a variety of 
places, that in all of these rules you're not doing things for 
people, you're inevitably doing things to people. That's an 
unfortunate set of circumstances. We in this Committee and we 
in Congress serve a very important role going all the way back 
to our predecessors in the Parliament on the other side of the 
ocean. Our responsibility it to protect the citizens from the 
king and his government. You are the President's Administrator 
and it's our responsibility to make sure that our constituents' 
interests are well taken care of, and that the king, using an 
old term, remembers the public.
    That said, Mr. Chairman, I look forward to all of this 
information that's been promised to us. I know that we've had a 
substantial amount that's appeared in recent days. Maybe we 
need to have more hearings so we can continue the flow of 
information.
    Chairman Smith. Thank you, Mr. Lucas.
    The gentelwoman from Maryland, Ms. Edwards, is recognized 
for her questions.
    Ms. Edwards. [Audio malfunction in hearing room] service 
and some of the other Members on our Transportation and 
Infrastructure Committee where we've held joint hearings with 
the Senate and hearings on the same issues in that Committee, 
and the Administrator's been there at hearings in this 
Committee and the Administrator is here, and I feel in some 
ways that we've asked so many of these questions so many times, 
and frankly, with the Clean Water Rule, I think since the 
Majority has already voted to gut it, it seems unclear why 
we're even discussing it here today.
    Nonetheless, you know, later in the day we're going to vote 
on the Interior Environment appropriations bill for fiscal year 
2016. It includes a rider that prevents the EPA from even 
proposing a standard lower than the current 75 parts per 
billion. During the debate, I offered an amendment to the bill 
to strike that rider specifically because of the testimony that 
we've heard before this Committee, which told us that the 
current standard is not in line with the current science. In 
testimony, the Committee received from Dr. Mary Rice back in 
March on the health impacts of ozone, she indicated that the 
research has only grown stronger since the last time EPA 
considered revising the current standard. One area she 
highlighted was the new evidence between higher ozone levels 
and increased mortality.
    Administrator McCarthy, can you please describe how the EPA 
incorporates changes in the scientific understanding into the 
rulemaking process? Some of my colleagues have claimed that the 
science EPA uses for its ozone regulations is somehow secret, 
so can you respond to those claims in your own words, and what 
policies or processes does EPA have in place for public review 
and comment on the science that EPA is considering? And you can 
have the balance of my three minutes to do that.
    Ms. McCarthy. Thank you. Well, the science behind ozone is 
one of the most robust bodies of science that we have available 
to us. There are thousands of studies that have been done for 
decades that have underpinned two ozone standards--sorry, 
three, that the Agency has put out and that will underpin our 
next review. This science is developed using both our Office of 
Research and Development and our Office of Air and Radiation, 
who work together to present information that they call an 
independent science assessment that they bring to our clean 
air--sorry--our CASAC, Clean Air Science Advisory Committee. 
That is a FACA that is actually directed--this is the process--
directed by Congress to us to do. They are independent and they 
peer-review the science. It is a public process, public 
comments, hearings, telephone calls they can join. Then CASAC 
provides advice to us and we take a look at that, and then the 
staff also integrate what our regulatory standards are that are 
the basis of our judgment of what that science means and then 
they actually propose to the Administrator usually a range of 
standards that I might consider that they would think would be 
appropriate on the basis of the science, recognizing that I 
have to look at what's adequate to protect public health and 
safety with a margin of safety, and so I have to look at also 
adding to what they give to add my policy judgment. And so the 
process is a lengthy one. It takes years to develop.
    The body of science is robust. It is looked at with public 
comment by independent, peer-reviewed scientists. In the case 
of this ozone standard, they clearly articulated that they 
thought the current standard of 75 was not adequate to protect 
public health and welfare and they indicated that I should be 
thinking about a range of 60 to 70 PPB as the most appropriate 
on the basis of the science available, which again is very 
robust and is well understood and has been commented on. And 
then they went on to say but they recognized that I have a 
policy judgment to make as well on this issue of using a margin 
of safety to make sure that it's adequately protective, and on 
the basis of that, I develop a rulemaking which is also public, 
which we proposed last year, late last year, and we will 
finalize on October 1st or before of this year, and in that I 
proposed a look at the standard between 65 and 70, taking 
comment down to 60, and also recognizing that people will want 
to talk about 75 again. But it was very clear to me on the 
basis of CASAC that this has been a tremendously open, public 
and credible process.
    Chairman Smith. The gentlewoman's time has expired.
    Ms. Edwards. Thank you very much. I have nine seconds left 
by my clock.
    Mr. Chairman, with unanimous consent, I would ask that I be 
allowed to enter letters into the record from my constituents 
including a Girl Scout troop saying that we need to get on with 
it. Thank you very much.
    Chairman Smith. Without objection, thank you, Ms. Edwards.
    [The information appears in Appendix III]
    Chairman Smith. And the gentleman from Wisconsin, Mr. 
Sensenbrenner, is recognized for his questions.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Administrator McCarthy, I'd like to ask you a few questions 
about the upcoming COP21 climate change talks in Paris.
    The President is committed to reaching an international 
deal there. Do you support international negotiations on 
climate change and greenhouse gas emissions?
    Ms. McCarthy. I support efforts to develop a global plan to 
move forward to address greenhouse gas emissions.
    Mr. Sensenbrenner. Okay. If the global plan ends up 
resulting in increases in the price of carbon, are you 
concerned about the fact that that would disproportionately 
hurt poor- and middle-income people rather than people who are 
in the upper one percent?
    Ms. McCarthy. I believe that the actions we take on 
greenhouse gases will protect all of us but most importantly 
those most vulnerable to changes in climate, which are low-
income and----
    Mr. Sensenbrenner. Well, I think that poor and middle-
income people will be most concerned about what happens to 
their expenses should the price of gas and electricity and 
natural gas and anything that is carbon-related go up if you 
guys go along with an increase in the cost of carbon. Are you 
concerned about the economic impact on----
    Ms. McCarthy. Absolutely.
    Mr. Sensenbrenner. --poor people?
    Ms. McCarthy. Absolutely. I'm interested in two different 
ways: to make sure that we reduce the carbon pollution that's 
threatening them but also do it in a way that continues to 
allow them to economically grow and to become part of the 
middle class.
    Mr. Sensenbrenner. Okay.
    Ms. McCarthy. That is our----
    Mr. Sensenbrenner. How do you do that by increasing their 
costs? You know, I've seen economic studies that indicate that 
the increase in costs on a per-family basis would be thousands 
of dollars, and that would have a much bigger impact on poor 
people than it would be on the CEOs.
    Ms. McCarthy. Sir, Congress has designed a process for EPA 
to develop a cost-benefit analysis, and we've done this with 
the Clean Power Plan. There is no way that history tells us 
that we have to sacrifice people's income and jobs in order to 
continue to make improvements environmentally, and carbon is no 
exception. The way you do it is exactly the way we designed our 
proposed Clean Power Plan to allow tremendous flexibility and 
time to make reductions in a way that keeps our electricity 
reliable and affordable and keeps people----
    Mr. Sensenbrenner. Well, that's not what I've seen 
projecting things out, and you know, I would ask you to have a 
preferential option to economically protect poor people that 
does not result in some goofy politically designed 
redistribution program where you'll collect some money and then 
you--taxes and then you'll send it back according to what 
somebody decides is good social engineering. Will you commit to 
me that you won't do that?
    Ms. McCarthy. Well, sir, I haven't proposed----
    Mr. Sensenbrenner. Yes or no.
    Ms. McCarthy. Yes, and I have not proposed any such----
    Mr. Sensenbrenner. Well, I know you haven't but I'm looking 
forward to----
    Ms. McCarthy. Well, that's now how----
    Mr. Sensenbrenner. --COP21. Okay. Now, I've got a couple 
other questions because I'm going to stay in the five minutes.
    Ms. McCarthy. All right.
    Mr. Sensenbrenner. One of the problems that we've had in 
these climate change negotiations is that China and India and 
Russia don't want to have any reductions in their growth rate. 
The President kind of went along with reducing our greenhouse 
gas emissions but letting China do business as usual. Would you 
support an international agreement that lets China and Russia 
and India off the hook and not have the same reductions in 
greenhouse gases over the same accounting period as the United 
States?
    Ms. McCarthy. Well, Congressman, I'm not reading what's 
happening the same way that----
    Mr. Sensenbrenner. No, no, I'm asking would you support--if 
it turns out that way, would you support that?
    Ms. McCarthy. So far, that's not what----
    Mr. Sensenbrenner. No, that's not the question I asked. 
Please answer the question I asked. Would you support it? 
Because the President has supported something like this in the 
past and maybe we should stop doing that by giving China an 
opportunity not to reduce its greenhouse gases until 2030 while 
we have to reduce ours between 26 and 28 percent by 2025. That 
doesn't sound to be something to me that's very good for 
America.
    Ms. McCarthy. Well, I certainly understand----
    Mr. Sensenbrenner. Do you think that's good for America? 
Will you understood it's good or isn't it good?
    Ms. McCarthy. Well, I understand that everybody needs to 
act, and clearly, both China and the United States and other 
large economies need to move forward to reduce their carbon 
pollution.
    Mr. Sensenbrenner. Okay. Well, then I guess----
    Ms. McCarthy. I think China----
    Mr. Sensenbrenner. Then I guess the deal that the President 
hatched with the Chinese when he was in Beijing does not fall 
within your markers that everybody has to step up to the plate 
because we're there and striking out, and they're sitting in 
the dugout or some other place. I yield back.
    Chairman Smith. Thank you, Mr. Sensenbrenner, and the 
gentlewoman from Oregon, Ms. Bonamici, is recognized for her 
questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you so much, Administrator McCarthy, for appearing before us 
today and for the important work you do to protect the health 
of Oregonians and Americans, and I'm an optimistic person so I 
want to say that I'm happy to hear that my colleagues on the 
other side of the aisle are concerned about the needs of low-
income people. That's some good news today.
    So I want to start by thanking you for the EPA's commitment 
to the ongoing cleanup of the Portland Harbor Superfund site. I 
look forward to your agency finalizing the remedial 
investigation and feasibility study. We know it's been a 
challenge to find environmentally sound, cost-effective cleanup 
methods that will allow the region 10 and local parties to stay 
on track toward the goal of presenting the public with a 
proposed cleanup plan in 2016. But after many, many years, 
we're all more than ready to resolve the situation in the 
Portland Harbor, and I look forward to your continued work 
together on this issue.
    Ms. McCarthy. And the state's been a wonderful partner in 
getting to this stage, and we will get this over the finish 
line.
    Ms. Bonamici. I appreciate that on behalf of many of my 
constituents who have a lot at stake.
    So I just got back from Oregon. I was there last week, 
where it was close to 100 degrees several days and in the high 
90s the rest. People are very concerned about climate change 
and warming temperatures, particularly with the risks 
associated, for example, our water temperatures, aquatic 
habitats, to the extent that, you know, core populations of 
some fish could become extinct. We're dealing with droughts, of 
course, my neighbors to the south a little more seriously, but 
a lot of regions in Oregon, we have a lot of agricultural 
production in eastern Oregon that's going to affect our region 
and agricultural products. So can you briefly mention how the 
work that you're doing will help with some of these issues? And 
I want to save time for another important question. Thank you.
    Ms. McCarthy. Let me very quick. The work that we are doing 
is to implement the President's Climate Action Plan, which is a 
series of domestic actions that will also reduce carbon 
pollution but also maintain the growth in our environment that 
we're all looking forward to continuing, and EPA in particular 
is moving forward in a variety of ways to take action on 
climate and to reduce carbon pollution. The good news is that 
it was done as a strategy to try to get global engagement to 
happen because it needs a global solution, and in fact, that is 
exactly what is happening.
    Ms. Bonamici. Terrific. Thank you. Thank you so much.
    I want to point out that there have been a lot of 
conversations in this Committee about the cost of regulation. 
Last year, the OMB estimated that rules promulgated by the EPA 
between 2003 and 2013, that decade, created between $165 and 
$850 billion in benefits at a cost of $38 to $46 billion. That 
sounds like a pretty good number to me.
    I'm really glad that you're working on the Clean Power 
Plan, reducing toxins in our air and water on behalf of not 
only my constituents but Americans.
    So some witnesses before this Committee have offered the 
opinion, and some of my colleagues, that EPA regulations should 
only be set if environmentally beneficial technology is widely 
commercially available, but others have pointed to a long 
history of technologies becoming available after the EPA 
determines that they're feasible. So does the regulations drive 
the innovation, and the technologies to reduce costs, for 
example, of renewables? So emphasizing that the EPA regulations 
spur innovation and in their absence there is not generally a 
financial incentive for widespread deployment. So we saw this 
when we tackled acid rain under the George H.W. Bush 
Administration. So can you comment on the view that EPA 
regulations such as the Clean Power Plan or proposed rule to 
reduce greenhouse gas emissions from new power plants will 
incentivize innovation?
    Ms. McCarthy. Yes. I'll just point out two things. The 
Clean Air Act was actually designed and passed by Congress to 
have sections that actually were moving technology forward. 
They were technology-spurring. The section that we're 
regulating power plants under, under the carbon pollution plan, 
is one of those sections. So it does say we need to continue to 
move forward on our New Source Standard.
    So what we have done is, we've set a standard that's 30 
years away. We have set a standard that allows--it's an 
investment signal in order to tell states they have every 
flexibility to get to that standard, but it's also a signal to 
the market. It will tell people that investments in renewables 
are not only affordable today, they're going to get more 
affordable moving forward. It's an opportunity for new energy 
efficiency technologies.
    Ms. Bonamici. Absolutely.
    Ms. McCarthy. This is a market-based approach to address a 
confounding problem but in a way that states can drive it in a 
way that works best for them and develops the businesses they 
want to have and the jobs they want to take advantage of.
    Ms. Bonamici. Terrific. And in our state when we passed a 
feed-in tariff pilot for solar, it sold out in the first five 
minutes it was available.
    Ms. McCarthy. Amazing.
    Ms. Bonamici. So a lot of potential for innovation there, 
and I yield back. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for his questions.
    Mr. Rohrabacher. Well, thank you very much.
    Ms. McCarthy. Thank you.
    Mr. Rohrabacher. You're obviously a very articulate and 
hardworking person, and we respect that even though we may have 
differences in policies.
    Ms. McCarthy. Thank you, sir.
    Mr. Rohrabacher. I just--do you know in your background of 
any example where scientists or people involved with policy 
were ignoring certain raw data in order to achieve a certain 
preconceived conclusion? Do you ever know--have you ever come 
across that?
    Ms. McCarthy. Not individuals that I have worked with.
    Mr. Rohrabacher. Do you know of examples of that?
    Ms. McCarthy. I can't----
    Mr. Rohrabacher. So you don't know of any examples where 
people didn't really fulfill their job----
    Ms. McCarthy. Well, if you're asking me----
    Mr. Rohrabacher. --of being held to such high standards?
    Ms. McCarthy. --personally, no, I don't know.
    Mr. Rohrabacher. Okay.
    Ms. McCarthy. Personally, no.
    Mr. Rohrabacher. Well, I would have to suggest then that 
maybe you're a little naive in that area. Those of us who've 
been around a while have seen this in several occasions. So not 
knowing any examples of that, you then feel totally secure in 
telling us that we must trust----
    Ms. McCarthy. No, sir.
    Mr. Rohrabacher. --in the outcome----
    Ms. McCarthy. No, sir.
    Mr. Rohrabacher. --without knowing the raw data----
    Ms. McCarthy. No, sir.
    Mr. Rohrabacher. --that went to that.
    Ms. McCarthy. No, sir.
    Mr. Rohrabacher. You are not asking us to trust you?
    Ms. McCarthy. No, sir. What I am--clearly, I've read about 
instances where science has not--has been manipulated.
    Mr. Rohrabacher. Correct.
    Ms. McCarthy. And that is why we work through an 
independent, peer-reviewed body to be able to provide us 
advice. They don't have to----
    Mr. Rohrabacher. Now, what about us? I mean, we are 
elected. Your peer-review process are not elected by the people 
to watch out for their interests.
    Ms. McCarthy. Well, actually, you----
    Mr. Rohrabacher. We are elected by--excuse me one moment. 
We are elected by the people----
    Ms. McCarthy. Okay.
    Mr. Rohrabacher. --to make sure that their interests are 
being watched out for. You are asking us to trust someone who's 
appointed rather than trying to look at whatever data is used 
for these decision-makings yourself, and I mean----
    Ms. McCarthy. There's no ``trust me'' about it, sir. You've 
given me a job. This government has provided the structure by 
which I do my job including looking at science.
    Mr. Rohrabacher. Well, the structure that was set up 
originally, I believe, was the Constitution that left Congress 
primarily responsible to watch out directly for the interests 
of the American people because they vote for us. Let me just 
point out, you are undermining that basic constitutional 
privilege when you tell us there's information you will not 
give us.
    Ms. McCarthy. No, sir, you have----
    Mr. Rohrabacher. Now, with that said----
    Ms. McCarthy. --laws that preclude us from giving you 
sensitive information.
    Mr. Rohrabacher. Well, sensitive information not given to 
the people elected by the voters of this country is an insult 
to the people, to our Constitution, to everything this country 
is supposed to be about in terms of freedom, responsibility, 
openness of government, et cetera.
    Let me ask you, what percentage of the atmosphere is 
CO<INF>2</INF>?
    Ms. McCarthy. What percentage of the atmosphere is 
CO<INF>2</INF>? I don't have that calculation for you, sir.
    Mr. Rohrabacher. Maybe you could tell us what your personal 
guess is on what percentage is CO<INF>2</INF>.
    Ms. McCarthy. I don't make those guesses, sir.
    Mr. Rohrabacher. You're the head of the EPA and you don't 
know? You based--you have all these laws based on--oh, you're 
going to get your staffer to tell you now, but you're the head 
of the EPA and you did not know what percentage--and now you 
are basing policies that impact dramatically on the American 
people and you didn't even know what the content of CO<INF>2</INF> 
in the atmosphere was, which is the justification for the very 
policies you're talking about.
    Ms. McCarthy. No, that----
    Mr. Rohrabacher. Thank you. I----
    Ms. McCarthy. If you're asking me how much CO<INF>2</INF> 
is in the atmosphere, not a percentage but how much, we have 
just reached levels of 400 parts per million.
    Mr. Rohrabacher. Excuse me. I think it was clear what I was 
asking you and I was very clear you didn't know.
    Let me ask you, if CO<INF>2</INF> from what I understand is 
only one-tenth--or excuse me--one-half of one-tenth of one 
percent of the atmosphere and you believe that this minimal, 
tiny element--and by the way, only ten percent of that, from 
what I understand, is actually manmade, and of course, whatever 
you're suggesting and is being suggested as the basis for 
creating these what we consider draconian controls is that one-
tenth that is manmade of the one-half of one-tenth of one-half 
of one percent, that that will have an impact on the weather to 
the point that it will actually impact people's health.
    Chairman Smith. The gentleman's time has expired.
    Mr. Rohrabacher. Thank you very much.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentlewoman from Massachusetts, Ms. Clark, is 
recognized for her questions.
    Ms. Clark. Thank you, Mr. Chairman. Thank you, 
Administrator McCarthy. I appreciate you being here. I 
appreciate your testimony, and I especially appreciate the 
correct pronunciation of carbon.
    I did want to ask you another percentage question. What 
percentage do you think of low-income people, in fact, all 
people in the world, will be affected by climate change if we 
do not do something to address it?
    Ms. McCarthy. I believe that everyone, 100 percent are 
already being affected and will be much more severely impacted 
if we don't take action now.
    Ms. Clark. And will that impact be felt first, do you 
believe, by low-income people?
    Ms. McCarthy. It usually is, and in this case, it will as 
well, and I think that's well known across the world, and I 
think you're seeing it play out right away. We need to adapt to 
the change that's already happening but people in low-income 
areas do not have the kind of wherewithal to be able to adapt 
that many of us actually enjoy, and so it is up to us to meet 
our moral responsibility, not just to them but to our kids' 
future and take action.
    Ms. Clark. We've had a lot of discussion here today about 
raw data and its role. Could you go into a little bit about 
independent peer review and how we actually review and 
determine what is valid science to base our regulations on? I 
do not have scientific training. I am an attorney by 
profession. I don't think that I am qualified to look at raw 
data, even if redacted, to make an assessment of good policy 
and laws. We need scientists to make that interpretation. Could 
you go into a little detail about that for me?
    Ms. McCarthy. Yes. The way that it works is that we have to 
have our science independently peer-reviewed. You need to have 
an open process that's transparent where you pick experts with 
the knowledge in that field.
    Ms. Clark. Can you have transparency without releasing 
every bit of raw data?
    Ms. McCarthy. Oh, absolutely we do have transparency. We 
have transparency in picking those experts. We have 
transparency in their discussion of what they think about those 
documents. We have public review and comment on those 
documents, and that's before we can really rely on them as the 
basis of regulatory action. But we almost never just look at 
one document. We look at a huge, robust document, series of 
science in order to underpin our major rulemakings, and the way 
that it works is, the scientists don't look at the raw data. 
They can if they want. They can reach an agreement with the 
researchers who own that data and sometimes own some of the 
modeling that's used to analyze it, but they don't need to. 
They look at it within the context of their knowledge of the 
science and the broad body of knowledge that we look at to see 
if it is being done correctly according to the science, if all 
of the factors that should be discussed are being discussed, 
and it's looked at within that context, and further, it can be 
replicated by others, but they don't sit all around saying I'm 
going to take another four years, give me the raw data and I'll 
give you a sense of whether this works. That is just not the 
way that science is done. That's the way that science can't get 
done.
    Ms. Clark. And do you see other agencies that are also 
looking at science where that is the process, that they are 
going back to the raw data?
    Ms. McCarthy. If you name an agency in the United States 
that is a credible science agency, that is how they do their 
work. That is what the National Academies is. This is how you 
do it.
    Ms. Clark. And speaking of analysis, last month the Union 
of Concerned Scientists came out with a report that found 
recent decisions in state laws that predate the Clean Power 
Plan have resulted in 31 states already making commitments that 
will put them halfway towards their 2020 benchmarks. Do you 
think we're going to be surprised at how easily and efficiently 
states are going to be able to meet these benchmarks even if 
the plan was not there?
    Ms. McCarthy. I think the challenge for us is to make sure 
that through our rulemaking, we do what the law says, which is 
to reduce carbon pollution. The way in which you can make that 
all affordable is to look at how the energy transition is 
already happening, and instead of thinking you have to go way 
in front of it, you go behind it and you keep pushing. That's 
how this works. And so I will not be at all surprised to see 
either the utilities or the states go way further than we 
require. In fact, that's usually exactly what happens. It's 
called good regulation and rulemaking, and I think this is 
exactly what we did with this carbon pollution plan because we 
give every state the flexibility to actually design the plan 
for themselves. All we're doing is setting the standard. It's 
far enough away. The technologies are there. They're going to 
keep getting better if we send the right signals, and I think 
we'll see this be an opportunity for us to continue that energy 
transition towards clean energy and low carbon that people are 
demanding.
    Ms. Clark. Thank you, and I yield back.
    Chairman Smith. Thank you, Ms. Clark.
    The gentleman from Alabama, Mr. Brooks, is recognized for 
his questions.
    Mr. Brooks. Thank you, Mr. Chairman.
    Administrator McCarthy, EPA's impact analysis of the 
proposed ozone regulations admits that the agency's proposed 
ground-level ozone rule will cost America at a minimum $3.9 
billion per year at 70 parts per billion and $15 billion per 
year at 65 parts per billion. In contrast, a study by the 
National Economic Research Associates, also known as NERA 
Economic Consulting, estimates that an EPA ozone limit of 65 
parts per billion would cut America's gross domestic product by 
$74 billion per year in real-dollar terms, totaling $1.7 
trillion in lost gross domestic product between 2017 and 2040, 
thus denying struggling American families an average of 1.4 
million jobs per year through 2040.
    Administrator McCarthy, I hope you will concur that the 
more damage the EPA's regulations do to the American economy, 
the poorer the American economy is, and the less money America 
has to pay for and ensure that Americans enjoy clean water, 
clean air, and proper disposal of hazardous materials. 
Anecdotally, I would submit that you can look at any number of 
poor, heavily populated regions around the globe that does not 
have the economic means to pay for pollution resulting in some 
of the worst polluted areas on the planet.
    In February, Alabama Governor Robert Bentley sent you a 
letter emphasizing that the proposed ozone regulations do more 
damage than good to Alabama.
    Mr. Chairman, at this time I'd like to submit Governor 
Bentley's letter to the EPA, more specifically, the Honorable 
Gina McCarthy, dated February 24, 2015, for the record.
    Chairman Smith. Without objection, so ordered.
    [The information appears in Appendix III]
    Mr. Brooks. The EPA states in its proposed ozone rule that 
``The Administrator notes that the determination of what 
constitutes an adequate margin of safety is expressly left to 
the judgment of the EPA Administrator.''
    Administrator McCarthy, it appears that your ``adequate 
margin of safety'' calculation will determine the EPA's ozone 
parts-per-billion standard and what kind of damage will be done 
to the American economy and American jobs. Is that accurate? Is 
that the standard that the EPA will be going by, adequate 
margin of safety, yes, no, or I don't know.
    Ms. McCarthy. That is what the statute requires.
    Mr. Brooks. Since the EPA's ozone regulation might be the 
costliest regulation in EPA history, which is saying quite a 
bit, America needs and deserves a precise and clear definition 
of what ``adequate margin of safety'' means.
    Administrator McCarthy, what is your precise definition of 
and what is the specific scientific methodology you intend to 
use to define adequate margin of safety?
    Ms. McCarthy. It is actually in the statute given as a 
policy judgment that I would make.
    Mr. Brooks. And what is your definition as you try to 
wrestle with what that phrase means, adequate margin of safety? 
I assume you're using scientific methodologies, perhaps sound 
economic analysis as you try to determine what a rather vague 
term, adequate margin of safety, means.
    Ms. McCarthy. Congressman, you will be able to see in the 
rules a very good discussion of what my judgment is and the 
basis of that. It will not be on the basis of cost. This is a 
health-based standard to protect public health. Cost is not a 
consideration in the preliminary----
    Mr. Brooks. How can you say cost is not a consideration for 
health? Because the health that we enjoy is a function of what 
we can pay for?
    Ms. McCarthy. This actual rule when you look at public 
health benefits, they far outweigh what we estimate to be the 
illustrative costs, but costs in terms of how you define an 
ozone standard is not considered until implementation. That----
    Mr. Brooks. Are you going to share with us today, this 
Committee, your definition, your understanding, your 
methodology of what the phrase ``adequate margin of safety'' 
means?
    Ms. McCarthy. That will be shared with you when you see the 
final rule, sir. That is when I apply my judgment and I explain 
it completely and it goes through whatever----
    Mr. Brooks. So as of today, you have no judgment and you're 
not able to explain it to this Committee, to the United States 
Congress or the American people?
    Ms. McCarthy. There is no specific definition I can offer 
you. It is a judgment that will be well documented by the 
science.
    Mr. Brooks. How long has the EPA been working on that 
definition and how long has that definition been in the 
statute?
    Ms. McCarthy. Since we created the National Ambient Air 
Quality Standards program.
    Mr. Brooks. What year?
    Ms. McCarthy. Since the Clean Air Act.
    Mr. Brooks. What year?
    Ms. McCarthy. When was it? I----
    Mr. Brooks. So decades later, you still don't have that 
definition with respect to----
    Ms. McCarthy. No, sir, it's not applied that way. You apply 
it to the individual rule----
    Chairman Smith. The gentleman's time has expired.
    Mr. Brooks. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Brooks.
    The gentleman from Virginia, Mr. Beyer, is recognized for 
his questions.
    Mr. Beyer. Thank you, Mr. Chairman, and Madam 
Administrator, I want to thank you at the top for being so 
patient and gracious this morning despite the rather combative 
nature of the questioning.
    My--our Chair, my good friend and distinguished Chair 
claims that the EPA's actions of the last six years have 
severely damaged our economy. How do you reconcile that with 64 
straight months of job growth, 10.8--12.8 million new private-
sector jobs, tripling of the stock market, the recent news that 
we have 5.3 million job openings now advertised, the most in 
American history? And if there's a--is it not perhaps better to 
also look at the infrastructure bills we failed to pass, the 
immigration reform we failed to act on, the Budget Control Act 
and sequester, our inability to do tax reform for holding back 
economic growth rather than blaming it on the EPA?
    Ms. McCarthy. Well, I think one of the things to recognize 
as well as when you look directly at EPA, you look at 70 
percent improvement in our air pollution. It's reduced by 70 
percent while the GDP tripled. We know how to do these rules in 
a way that is not just not contrary to job growth and the 
economy but can fuel it and becomes part of it.
    Mr. Beyer. You know, I now use text messages a great deal, 
mostly because my children will not return my phone calls.
    Ms. McCarthy. That is exactly why I do.
    Mr. Beyer. And I also find that I'm not allowed to talk in 
the phone in Committee or on the House Floor, so my excellent 
staff text me back and forth all day long, and I read and 
delete, read and delete. I can't ever actually imagine doing 
anything substantive in 140 characters, especially with my 
clumsy iPhone typing skills. I also discovered if I don't 
delete, the chain just gets longer and longer and longer with 
my scheduler or with my daughter. So is there really any reason 
to think that your 6,000 text messages were anything but 
trivial and personal and nonconsequential?
    Ms. McCarthy. There were two that I actually saved because 
they were a record. Other than that, they were, to the best of 
my recollection, family, friends, I'm going to be a little late 
for something. Text does not accommodate a substantive 
conversation but it does accommodate me keeping in touch with 
my kids when I'm pretty far away. That's the reason why I 
started it, and we do not and throughout discourage the use of 
text message but when we do use it for government purposes, but 
when we do there's a process and a policy in place to make sure 
that those are preserved. That's the policy that you see 
reflected here.
    Mr. Beyer. Can you get an EPA rule to require parents--or 
children to call their parents?
    Ms. McCarthy. I wish I could. If Congress would give me the 
authority to enforce that, I'd be----
    Mr. Beyer. On ozone, we're now at 75 parts per billion, and 
the Chair says that's a 33 percent improvement, and you're only 
asking for perhaps a 5-parts-per-billion decline. That's 6-2/3 
percent. We've been offering amendments up until midnight or 
1:00 in the morning to the appropriations bill in the last 2 
months, and again and again and again we hear that we can cut 
the budget by five percent or ten percent and it's not going to 
make any substantive difference at all. When 70 parts per 
billion is what robust science says is needed for our health, 
why the hysteria about a six percent cut? And we've heard the 
conservative think tank projection of job loss. Can you talk 
anything about the economic value of the health benefits and 
how that compares to the potential cost?
    Ms. McCarthy. The health benefits of this rule dwarf the 
economic costs that we're projecting. We're talking at a level 
of 70, $6.4 to $13 billion a year in benefits; at 65, it's $19 
to $38 billion. So we are talking about significantly more 
benefits than cost.
    But the most important benefit of this, sir, if I might, is 
that you're telling the American people what clean air is 
supposed to be. So the benefit immediately is that individuals 
who have kids that have asthma will know that their air 
quality--sorry. Let me put it another way. They can take a look 
at what the air quality is today on their Weather Channel that 
we help provide and they can decide whether their kids should 
go out and play. The biggest value is that individuals can 
protect themselves, their kids, their elderly parents, make 
decisions for themselves today while we give states lots of 
time to think about what other cost-productive ways to achieve 
that over many years. Some of these states won't even face 
these challenges for a very long time but you don't worry about 
the implementation if that means that you're not giving the 
public the information they need today to protect themselves 
and their kids. That's what this is all about.
    Mr. Beyer. Thank you, Madam Administrator.
    Mr. Chair, I yield back.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Illinois, Mr. Hultgren, is recognized 
for his questions.
    Mr. Hultgren. Yes. I'd like to first yield to the Chairman.
    Chairman Smith. I appreciate the gentleman yielding.
    I just want to make two points. First of all, I'll remind 
the gentleman from Virginia that text messages to staff are 
official text messages, and for the Administrator to say that 
all but one or two text messages out of 6,000 were personal is 
simply laughable.
    The other statistic I wish the gentleman had mentioned in 
his list of statistics is that we had the lowest labor 
participation today in America in 38 years.
    I thank the gentleman from Illinois for yielding, and I 
yield back.
    Mr. Hultgren. Thanks, Chairman, and thank you, 
Administrator McCarthy. I do appreciate you being here, and I 
appreciate the job your agency is tasked with, and as I 
mentioned last time you were here, it's important to realize 
the good work we've already been able to do. According to your 
own data, aggregate emissions for the six common pollutants 
have decreased 68 percent since your Agency's implementation of 
the Clean Air Act while we consume 44 percent more energy and 
travel 168 percent more miles.
    Ms. McCarthy. Thank you.
    Mr. Hultgren. We actually are doing well, and that's why I 
have concerns about an agency that many in my community and my 
constituency is continually moving the goalpost as an activist, 
not as a regulator. My constituents and I do agree that we need 
smart, reasonable, science-based regulations, and with the 
botched Mercury Rule we saw all on display two weeks ago, I'm 
not sure that that has been the case with your agency.
    I also expect your agency to work with our states and 
counties as a partner, not a Palpatine, and when former 
officials from an Administration consider EPA's efforts to work 
with other federal agencies to be a sham, I can tell you that 
it does not appear your collaboration with our state agencies 
has been any better.
    Mr. Chairman, I'd like to enter into the record a letter 
from the U.S. Conference of Mayors, the National Association of 
Counties, the National League of Cities, and the National 
Association of Regional Councils dated March 17, 2015, where 
they call on the EPA to retain the existing ozone standard set 
in 2008 which still has not been fully implemented.
    Chairman Smith. Without objection, so ordered.
    [The information appears in Appendix III]
    Mr. Hultgren. I'd also like to point out, the effect these 
changed standards will have on the State of Illinois and many 
of the counties that I represent. The Center for Regulatory 
Solutions released a study today which showed how EPA's 
proposed ozone regulations, the most expensive regulation in 
history, will cause significant burden to the Chicago-area 
economy. As you can see from the slides above, with 21 counties 
of attainment, I'm worried about the overall impact, and if you 
change to the second slide, you'll see how bad this is for the 
collar counties that I represent. We are putting 73 percent of 
the state's already fragile GDP at risk.
    [Slide.]
    Last year, Illinois enrolled twice as many new recipients 
on SNAP benefits than it created jobs. Just last week, the 
Illinois Black Chamber of Commerce joined by the U.S. Chamber 
of Commerce and the National Black Chamber of Commerce hosted a 
symposium on the economic and employment impacts the ozone 
proposal would have in Chicago and on minority communities. It 
is clear this rule will have a disparate impact on low-income 
communities, communities of minorities and seniors on fixed 
incomes.
    Administrator McCarthy, this should be a quick answer, but 
do you consider your agency's efforts to coordinate and 
collaborate with our state and local officials to be better, 
worse or the same as your efforts to collaborate with other 
federal agencies such as DOE?
    Ms. McCarthy. I think we collaborate very well with both 
our sister federal agencies as well as our state and local 
communities.
    Mr. Hultgren. That's not what we're hearing, and in some 
ways it reminds me of when I was in school and we'd have group 
projects, and there would be one person who wouldn't do any 
work. The teacher would ask how it went. Everybody would put in 
a slip of paper saying this person didn't carry their weight, 
and then that person would stand up and say I did the whole 
project myself and everybody else is dumb. That's kind of the 
approach that I feel is happening right now when we're hearing 
from other agencies----
    Ms. McCarthy. Well, sir, the studies that you're quoting 
didn't even do a study of this proposal.
    Mr. Hultgren. The studies I'm quoting are talking about the 
impact--and it just was released today. I don't know if you've 
seen it but we can make sure you have it. This is the one, and 
it absolutely is dealing with increase of your proposal. We'll 
make sure you have it. You can review it and you can respond to 
us later.
    Ms. McCarthy. Okay.
    Mr. Hultgren. Again, we just got it. It was just released 
today so I haven't been holding it back from you.
    Ms. McCarthy. Okay.
    Mr. Hultgren. But it's something that if we would have 
gotten it sooner, we would have gotten it to you sooner.
    Ms. McCarthy. Okay. Thank you.
    Mr. Hultgren. But it just came out today.
    Ms. McCarthy. Yes.
    Mr. Hultgren. In the letter I submitted, the National 
Conference of Mayors pointed out that the Clean Air Act 
requires transportation conformity to ensure federally 
supported transportation activities are consistent with state 
air quality implementation plans. The Chicago area is largest 
rail hub in the country. According to the Center for Regulatory 
Solutions, freight traffic is expected to increase by 80 
percent by 2020. How does EPA expect the most financially 
troubled state in the country to implement these standards when 
the agency has not and will not consider the full potential 
cost of implementation?
    Ms. McCarthy. If I could point out, sir, the health 
standard sets up a process where states develop plans over time 
and there is significant time to achieve this standard.
    But the majority of----
    Mr. Hultgren. My time is expired. If you could maybe 
respond in writing back to me, these are important questions.
    Ms. McCarthy. The vast majority of the counties will be 
in----
    Chairman Smith. Thank you, Mr. Hultgren, and the gentleman 
from----
    Ms. McCarthy. --as a result of national standards. That's 
an important thing to remember. This is not on the backs of the 
states. It is a partnership between the national government and 
the states to get this done.
    Chairman Smith. The gentleman's time is expired. Thank you, 
Mr. Hultgren.
    The gentleman from California, Mr. Takano, is recognized 
for five minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Administrator McCarthy, thank you for being here this 
morning. You know, Representative George Brown, former Chairman 
of this Committee, whose portrait hangs right over there, was 
probably responsible for the establishment of the EPA and the 
passage of the Clean Air Act. My constituents and I have seen 
firsthand how the EPA can improve air quality and advance 
public health.
    In my own home district of Riverside, California, according 
to the State of the Air 2015, a report from the American Lung 
Association, still has tremendous struggles with ozone and 
particle pollution. We are situated, you know, downwind from my 
other colleague from California, and we typically have middle-
class, low-income folks that can't afford homes along the 
coast.
    I am glad to hear that my colleagues also care about poor 
people and middle-class people. I don't understand why they're 
not so concerned about the wealthy people along the coast whose 
property values stand to be put in jeopardy by global climate 
change.
    But, you know, I'm struck by the fact that EPA regulations 
save us money in the long run by improving public health and, 
you know, I'm struck by the comment that health is what we can 
pay for, but I'm also struck by a comment that a senior citizen 
once made to me and says, you know, nothing can really--you 
can't place a value on your health.
    A study by the EPA shows that by 2020, the benefits of the 
Clean Air Act will outweigh the costs by more than 30 to one. 
The Clean Air Act has helped cut down on cases of asthma, heart 
disease and infant mortality. And by 2020, it is expected to 
prevent 17 million lost workdays because people are healthier.
    And I want to put this hearing in context. I'm afraid my 
colleagues on the other side of the aisle are exploiting the 
public's frustration with the economic downturn to push an 
anti-environmental war on science, and for me, it's 
particularly offensive because the people in my area greatly 
suffer. We were ground zero for the mortgage crisis. It was a 
financial services meltdown which has caused this lack of 
participation in the economy, not environmental regulations 
we've proposed to solve our situation. They propose to solve 
our situation that was caused by a financial meltdown by 
deregulating our--you know, not regulating the environment or 
taking these controls off which my area, the people in my area 
benefit from those--from the EPA's regulations.
    The clean air--the ozone and the particulates we would 
suffer far greater, I claim, if we did not have EPA improving 
our air quality over the past 20 years.
    Now, I want to ask you a question. Do you--Administrator, 
do you believe that the EPA, you know--what's the balance 
between listening to elected politicians, the opinions and 
knowledge of elected politicians, versus independent 
scientists?
    Ms. McCarthy. Well, when you make a decision like this, you 
must listen to the independent scientists who base it on peer-
reviewed science. That's what the law requires. But it's sort 
of what all of us would agree would be a good thing to do.
    Mr. Takano. I agree. I think the American people would say 
let's trust the opinions of independent scientists. They're 
unelected, granted, but they're also not subjected to the 
various different kinds of interests that can play upon them, 
right?
    Ms. McCarthy. But this body indicated that that's how we 
should do it.
    Mr. Takano. The Congress set it up that way. The Congress 
actually mandated----
    Ms. McCarthy. That's right.
    Mr. Takano. --that you rely on that.
    Ms. McCarthy. Yes.
    Mr. Takano. Now, I understand that the power plants that 
burn coal, one of the serious emissions is mercury. Is that 
right?
    Ms. McCarthy. That's right.
    Mr. Takano. And mercury causes--is linked to neurological 
damage in children.
    Ms. McCarthy. That's correct.
    Mr. Takano. And I understand that who tends to be located 
and inhabit the areas around coal plants tend to be low-income 
people, often people of color.
    Ms. McCarthy. Yes.
    Mr. Takano. Is that true?
    Ms. McCarthy. That is true.
    Mr. Takano. Okay. As much as I'm glad to see the Majority 
cares about the plight of poor people but I'm wondering whether 
or not they care about the health of poor people, and it seems 
to me that it's contradictory to say oh, we care about poor 
people being able to buy, you know, buy carbon but not also 
take into consideration the fact that we have many, many, many, 
disproportionately poor people that are living around these 
power plants.
    I only have 20 seconds left, but can you maybe comment 
about the ability of your regulations to generate greater 
economic activity?
    Ms. McCarthy. Yeah, it's actually--a well-done rule for the 
environment is actually extremely supportive of the foundation 
of a growing economy because we're talking about premature 
deaths, we're talking about asthma attacks, kids not being able 
to go to school, we're talking about families not being able to 
go to work. So we actually believe, and I think the data shows 
that our rules are so cost-beneficial because they give so many 
more public health benefits than they do cost the economy, and 
if you structure this right, you generate activity in the 
economy to grow new technologies, to grow new jobs. I think 
that's extremely important to remember is that utilities----
    Chairman Smith. The gentleman's time has expired.
    Ms. McCarthy. Oh, I'm sorry.
    Chairman Smith. Thank you, Mr. Takano.
    Mr. Takano. Thank you.
    Chairman Smith. The gentleman from Florida, Mr. Posey, is 
recognized for his questions.
    Mr. Posey. Thank you, Mr. Chairman.
    Administrator McCarthy, a 2004 Department of Environmental 
Protection report claims, from the Florida Department of 
Environmental Protection, due to the relatively large 
geographic area covered by forest and other vegetation in the 
Gulf area of Florida, biogenic VOC, volatile organic compounds, 
emissions make up to 20--I'm sorry--up to 80 to 90 percent of 
the total VOCs emitted on a typical summer day.
    Another Florida Department of Environmental Protection 
report states EPA also should consider whether natural 
background concentrations would preclude compliance with the 
EPA's proposed standards in certain geographic areas. For 
example, EPA estimates that 70 to 80 percent of the seasonal 
mean ozone levels in Florida are attributed to background 
contributions. And so my question is, how could they comply 
with the new requirement of 65 to 70 if nature gives them 70 to 
80 for a start?
    Ms. McCarthy. Well, Congressman, let me assure you that 
states are not held responsible for reducing emissions that are 
not in their control. The Clean Air Act is very clear about 
that. So there was a great discussion, frankly----
    Mr. Posey. Okay. You've stated that's a fact. I'll accept 
that.
    Ms. McCarthy. Okay. Thank you.
    Mr. Posey. With regard to the Clean Power Plan, are you at 
all concerned about the increasing costs of electricity and 
causing many of the poor, which my colleague just referred to 
just a moment ago he seemed so concerned about, and also 
seniors to make difficult choices as to which necessities in 
life they can afford due to the increase in their electric 
bills, and they may possibly be extreme.
    Ms. McCarthy. Well, let me be clear. I am always concerned 
about the economic consequences of our rules, and we seek very 
much to make sure that those are as minimal as possible, and if 
you take a look at the Carbon Pollution Plan, that's why we 
made it so flexible so states could design their own plans to 
ensure that electricity would be reliable and affordable. 
Projections indicate that when this rule--at the time of the 
final goal in 2030, the final standard, you're actually looking 
at a decrease in what people have to pay a month for their 
electricity.
    Mr. Posey. So how much could the people, the senior 
citizens of Florida, how much can they expect their rates to go 
down because of this new rule that you're going to pass?
    Ms. McCarthy. They can expect their bills to go down by 
about eight percent in 2030, according to our projections.
    Mr. Posey. 2030. Okay. What about between now and 2030?
    Ms. McCarthy. At most, the increase is a gallon of milk. 
It's about three dollars.
    Mr. Posey. About three dollars.
    Ms. McCarthy. A month.
    Mr. Posey. For what? What volume----
    Ms. McCarthy. That would be on an electric bill. So if you 
pay $100 today, it could be as much as $103 I believe in 2025. 
But over time that----
    Mr. Posey. Before my time runs out, did I hear you say--did 
I hear this correctly, that of the 6,000 messages you received 
or sent on your government-issued BlackBerry and your 
government-issued iPhone, that only one or two of those were 
official business? Did I hear that correctly?
    Ms. McCarthy. Only one or two of those were actually 
records under the Federal Records Act that should be preserved. 
Now, there were exchanges about ``I'm late for this meeting'' 
or that. Those are transitory and those are not to be 
preserved. That's how the Federal Records Act works because 
they're not substantive. So----
    Mr. Posey. So----
    Ms. McCarthy. --the two substantive ones that I knew about 
I preserved.
    Mr. Posey. So out of 6,000, you only had two substantive 
transmissions out of 6,000?
    Ms. McCarthy. We highly discourage through policy the use 
of mobile devices for the very reason that we need to make sure 
that we're preserving records. So we highly discourage it, and 
frankly, I do not use it--to my recollection, I only started 
using text because my kids wouldn't answer my phone calls.
    Mr. Posey. Did you receive or send any message to any 
special-interest groups interested in the environment from your 
iPhone or your BlackBerry? Out of 6,000 in five years, you 
never once, never once, you're telling us, ever once sent a 
substantive message or received a substantive message from a 
special-interest group pertaining to the environment. Is that 
correct?
    Ms. McCarthy. To my recollection, the two that needed to be 
preserved were preserved.
    Mr. Posey. Just--you can say yes or no.
    Ms. McCarthy. I don't--that's my best answer.
    Mr. Posey. You cannot tell me that you never received any 
other substantive message or sent one to a special----
    Ms. McCarthy. Are we talking about text message or----
    Chairman Smith. The gentleman's time----
    Mr. Posey. Anything through your BlackBerry----
    Ms. McCarthy. Emails----
    Mr. Posey. --or your iPhone.
    Ms. McCarthy. --would have come in. Emails would have come 
in.
    Chairman Smith. The gentleman's time----
    Ms. McCarthy. But those are preserved.
    Chairman Smith. The gentleman's time is expired. I thank 
Mr. Posey, and we'll go to the gentleman from California, Mr. 
Swalwell, for his questions.
    Mr. Swalwell. Thank you, Chair, and thank you, 
Administrator. Did you want to follow up on that?
    Ms. McCarthy. Well, I just wanted to indicate that out of 
the two text messages that I preserved, I think one was from an 
outside constituency, an environmental advocacy organization. 
That's why I preserved it. But that's what I was trying to 
recall. But beyond that, I didn't know if his question related 
to emails, which is in the system and preserved.
    Mr. Swalwell. I didn't know what the question was either.
    Ms. McCarthy. Okay.
    Mr. Swalwell. Thank you.
    Administrator, in California, you know, we don't really 
have the choice of having a debate about whether or not we 
believe that climate change is occurring. We live with a 
climate that is drastically changing. We have the worst drought 
in our state's history. The good people of my district have put 
upon themselves drought restriction--or drought conservation 
measures of up to 30 percent conservation. And so I was hoping 
you could elaborate on how extreme weather events are impacting 
states and the types of challenges state and local governments 
will face when dealing with more regular events.
    Ms. McCarthy. Well, I'm happy to because the changes that 
we're already seeing in extreme weather in the United States 
include heavier downpours that are just getting more intense. 
Heat waves are becoming more frequent and intense. Intensity, 
frequency and duration of North Atlantic hurricanes have 
increased since the early 1980s. Winter storms have increased 
in frequency and intensity. We're talking about floods have 
decreased in the Southwest but they're really increasing in the 
North and East. We have droughts that we've not seen for the 
last 800 years and so we are seeing already extreme results, 
and we've recently put out a report that I'd encourage you to 
take a look at, which shows that if we don't take global 
action, what our world--what the world's going to look like 
that we're handing to our children in the next 50 and our 
grandchildren in the next 100 years.
    Mr. Swalwell. Thank you, Administrator.
    And also, I wanted to briefly touch upon renewable energy. 
Last September, the New York Times featured Germany and its 
efforts with offshore wind, and they will very shortly receive 
30 percent of their energy from renewable sources, and there 
are many other countries that are close behind, but one of 
those countries that is not close behind is the United States. 
We're still around 10 to 12 percent from renewable sources, and 
that's largely--that is not wind and solar. And so would you 
agree, Administrator, that the best way to reduce carbon 
emissions would be to make investment--aside from policies but 
in the long run would to be make investments in renewable 
sources that provide energy?
    Ms. McCarthy. Well, I think the general public is speaking 
with their dollars on that because renewable is getting less 
expensive as time goes on, and we're seeing, in terms of 
renewables, three times as much wind as prior to this 
Administration, 10 times more solar. It's competing. I would 
absolutely agree that it is a technology of the future--of the 
present and the future.
    Energy efficiency is also a significant opportunity for 
investment. If you don't demand the electricity, you don't have 
to worry about the carbon that's emitted from it.
    Mr. Swalwell. And knowing the scientists that you deal 
with, some of the biggest brains in the world across our great 
country, do you believe that we are less capable as a country 
than Germany----
    Ms. McCarthy. No.
    Mr. Swalwell. --in achieving 30 percent of our energy from 
renewable energy?
    Ms. McCarthy. I think that's the President's frustration is 
that we have an opportunity to lead the future, and that future 
would be better for us economically. We are growing more jobs 
in the solar sector than any sector of the economy. We can do 
better, and the Clean Power Plan will hopefully continue to 
spark that investment in innovation.
    Mr. Swalwell. Thank you, Administrator, and I also want to 
thank my colleague from New York for letting me jump ahead of 
him so I could make my way to the Floor, and I yield back, Mr. 
Chair.
    Chairman Smith. Okay. Thank you, Mr. Swalwell.
    I will go to the gentleman from Kentucky, Mr. Massie, for 
his questions.
    Mr. Massie. Thank you, Mr. Chairman.
    Ms. McCarthy, I'd like to start with some questions. In a 
discussion that you and I had when you were here in November of 
2013, I asked if the EPA was looking into regulating methane 
emissions from cattle, and I don't expect you to recall that 
but--so I'll read to you the transcript of our conversation. I 
asked if you're aware that methane emissions from cattle--``can 
you assure us today that you are not looking--or that you are 
not investigating that?'' And you said ``I am not looking at 
that.'' And then I asked ``Nobody in the EPA is?'' And you 
said, ``Not that I am aware of.'' Now, we're talking about 
methane emissions from cattle. That was in November of 2013.
    Now, in March of 2014, just four months later, the 
President issued a Climate Action Plan called Strategy to 
Reduce Methane Emissions, targeting a number of industries for 
methane emissions reductions, including agriculture, including 
cattle. And then one month later, April of 2014, just five 
months after you and I had this discussion, the EPA put out a 
document talking about the sources and sinks of greenhouse gas 
emissions and there's an entire chapter in here dedicated to 
agricultural emissions, particularly cattle, beef cattle and 
dairy cattle.
    So, if I would ask this question again today, would you 
have a different answer? The question is is anybody at the EPA 
looking at or investigating methane emissions from cattle?
    Ms. McCarthy. Well, sir, as you teed it up in this 
discussion, you started by talking about are we regulating or 
considering regulating. I believe that was the context of my 
answer and it remains exactly the same. No.
    Mr. Massie. You are not?
    Ms. McCarthy. No.
    Mr. Massie. And you can give us that assurance? You have no 
intention of regulating methane emissions----
    Ms. McCarthy. And the president is not suggesting that 
either. What he is suggesting is that it is a source of carbon 
emissions that lends itself very well to us working with 
agriculture to develop the technologies that reduce that. And 
EPA has been engaged in that issue for a very long time.
    Mr. Massie. Well, maybe like you've been working with the 
wood boiler--woodstove industry, you know----
    Ms. McCarthy. We have been.
    Mr. Massie. Yeah, exactly. Well, I want to ask you about 
that. So----
    Ms. McCarthy. Okay.
    Mr. Massie. --you issued the final ruling on that in 
February, I believe. Do you think it's wrong or does it bother 
you at all if you promulgate a regulation that most Americans 
are against?
    Ms. McCarthy. Is it--if I--if they get a chance to see it 
and understand it, it would bother me very much.
    Mr. Massie. Well, it bothers me, too, and so the irony of 
you being here today or coincidence is we're going to have a 
vote on the Floor here in a few hours about your regulation 
that you promulgated----
    Ms. McCarthy. Oh.
    Mr. Massie. --on wood-burning stoves, and it's on the 
appropriations bill for your department. And I'm going to make 
a prediction. I'm going to predict that the people's House 
votes not to fund that regulation because the majority of our 
constituents don't support it. And I'm also going to predict 
it's going to be a bipartisan vote. So I hope you take a good 
look at that----
    Ms. McCarthy. Well, sir, I just hope you take a look at it 
because we worked with the industry very well. It's about 
working with them to give them the time to take advantage of 
new technologies that will make it better for everybody.
    Mr. Massie. I'm glad you worked with the industry because 
I've been talking to them, too, and do you know what it's going 
to cost to update their models to comply with your regulations?
    Ms. McCarthy. Update their models? Well, all I know is that 
we worked on the timeline that was extensive for those small 
businesses----
    Mr. Massie. Well, somebody at the EPA----
    Ms. McCarthy. --that needed to take a look----
    Mr. Massie. --knows what it's going to cost because you've 
published that, along with the rules----
    Ms. McCarthy. I just don't have it at my fingertips.
    Mr. Massie. Okay. Well, it's $1 million per model for 
hydronic heaters. Let's say there are 50 models out there. What 
we're talking about is $50 million cost to this industry. These 
are small manufacturers making a product. By the way, are you 
aware that their product is eligible for a renewable energy tax 
credit? I find this very ironic because what they produce is a 
carbon-neutral source of heat for middle-income and low-income 
Americans that the government provides a tax credit for, yet 
you are adding $50 million of cost just for one type of these 
heaters.
    Ms. McCarthy. Sir, the emissions from woodstoves is work 
that we have been working with States for a long time.
    Mr. Massie. And I would argue----
    Ms. McCarthy. They can be a significant source of emissions 
that don't need to be emitted if we work with----
    Mr. Massie. Let me ask you this----
    Ms. McCarthy. --the industry to provide them 
opportunities----
    Mr. Massie. --since you've been working with the States, 
would you acknowledge that each State has different 
requirements and they're unique----
    Ms. McCarthy. Which is why the industry in the States 
wanted EPA to do a rule that smoothed those requirements 
specifically for the businesses selling----
    Mr. Massie. The industry----
    Ms. McCarthy. --woodstoves.
    Mr. Massie. --is not happy about spending millions of 
dollars to upgrade their products because of a one-size-fits-
all, top-down rule from the EPA.
    I thank you and I yield back.
    Chairman Smith. Okay. Thank you, Mr. Massie.
    And the gentleman from New York, Mr. Tonko, is recognized 
for his questions.
    Mr. Tonko. Thank you, Mr. Chair. And welcome, Ambassador 
McCarthy. Thank you for your leadership and----
    Ms. McCarthy. Oh, there you are. I was looking for you. So 
sorry.
    Mr. Tonko. No, that's okay.
    Ms. McCarthy. I don't know how I missed you. There's a lot 
of empty chairs.
    Mr. Tonko. There you go. Thank you for your leadership and 
your obvious grasp of the issues is a tremendous benefit to 
EPA.
    The hearing today is again a revival of hearings we've held 
before, proposals to strengthen standards to protect public 
health and the environment and claims that meeting the 
standards will be too costly, possibly not achievable, and in 
general a serious drag on our economy. So I have a number of 
questions for you, Administrator.
    The Clean Air Science Advisory Committee, or CASAC, was 
created in the--with the 1977 Clean Air Act amendments. Their 
first report on ozone came out in the mid-1980s and there have 
been a number of subsequent reviews over the past 35 years with 
much new research since the original report. Has CASAC found 
that ozone is a less of a health risk than 1980 science 
determined it was?
    Ms. McCarthy. No, sir, they found that it is increasingly 
of concern.
    Mr. Tonko. Thank you. And does it contribute less to other 
environmental problems, for instance, damage to plants, 
visibility, and other effects?
    Ms. McCarthy. No. We are now realizing just how much damage 
it actually causes.
    Mr. Tonko. And so if anything research over the years has 
confirmed that ozone is a health risk and an environmental 
problem. Is that correct----
    Ms. McCarthy. Yes.
    Mr. Tonko. --as a statement?
    Ms. McCarthy. Yes.
    Mr. Tonko. Well, have passed standards been criticized on 
the basis of their projected cost and benefits?
    Ms. McCarthy. Always.
    Mr. Tonko. I think your testimony points out that we have 
been able to achieve cleaner air and grow the economy, as we 
have strengthened the standards, and is that correct?
    Ms. McCarthy. That is correct.
    Mr. Tonko. Any reason to believe we cannot keep that record 
going?
    Ms. McCarthy. None.
    Mr. Tonko. Well, will the States have flexibility and 
discretion to determine how they might meet new standards in 
the most cost-effective way?
    Ms. McCarthy. That is exactly the choice we're giving them, 
yes.
    Mr. Tonko. Climate change also has the potential to 
exacerbate the existing health conditions such as asthma and 
adversely impact vulnerable populations like our children and 
our elderly. How do you respond to those who ignore the role 
climate change has on public health?
    Ms. McCarthy. I ask them to trust the scientists. There--it 
is a majority, if the--overwhelming majority and we need to 
make action now.
    Mr. Tonko. Thank you. I would hope that a committee dubbed 
Science, Space, and Technology would embrace science.
    Also, what kinds of ongoing health risks are expected if we 
do not act and current climate trends continue?
    Ms. McCarthy. Well, if you look at the report that we put 
out, we are talking about a tremendous loss of lives, huge 
economic consequences, environmental damage if we do not take 
global action. And U.S. leadership is essential to allowing the 
world to get the momentum they need to address this significant 
problem.
    Mr. Tonko. And how will policies that the Administration is 
seeking to implement address the public health impacts 
associated with climate change?
    Ms. McCarthy. Well, we're going to be reducing carbon 
pollution, which also brings with it significant co-benefits. 
There's significant opportunities to reduce other traditional 
pollutants. But the one thing that I think we always keep 
forgetting is that climate change is actually impacting the 
economy today. Don't tell me it isn't in California; don't tell 
me it wasn't when Hurricane Sandy hit in New York. These are 
costs to us today that are only getting worse and worse, and if 
you look at Action on Climate and see the kind of economic 
benefits it can provide that will not just protect us from 
escalating carbon but grow a carbon--a low-carbon future with 
new jobs, that is the goalpost that all of us are looking for. 
That's why we designed the carbon pollution plan as flexibly as 
we did.
    Mr. Tonko. Thank you. I, certainly as a New Yorker, would--
--
    Ms. McCarthy. Yeah.
    Mr. Tonko. --associate with the comments you just made. As 
a New Yorker and one who works at NYSERDA, the State Energy 
Research and Development Authority, I was very much involved 
with the Regional Gas Initiative, RGGI. And the State of 
Massachusetts' Department of Environmental Protection head Dr. 
David Cash said that ``wise environmental protection and robust 
economic development can and should go hand in hand.'' Would 
you comment on that statement? He indicated that--they touted a 
seven percent increase in economic growth----
    Ms. McCarthy. Yeah.
    Mr. Tonko. --in the region while cutting carbon emissions 
by 40 percent.
    Ms. McCarthy. Yeah, the Regional Greenhouse Gas Initiative 
has been enormously successful. I think they recognize that if 
they challenge the utilities to be more efficient, if they 
provide opportunities for renewables and energy efficiency to 
be supported, that it not only gets you the environmental 
benefits you're looking for but it really tremendously sparks 
the economy.
    You know, Massachusetts, having--living there, 
Massachusetts actually bounced back better from the economic 
downturn than other States and it was credited by the Governor 
that it was because of the new technology businesses, the way 
they have embraced the future that allowed them to have less of 
a downturn and bounce back quicker. So this has to be part of 
an economic strategy. You cannot have climate happen and not 
pay attention to the cost today, the escalating cost tomorrow, 
and the tremendous benefits if you stand up tall and do what is 
our moral responsibility. That is the----
    Chairman Smith. The gentleman's time has expired.
    Mr. Tonko. Well, I thank you, Mr. Chair, and I thank the 
Administrator again for her awesome leadership.
    Chairman Smith. Thank you, Mr. Tonko.
    The gentleman from Oklahoma, Mr. Bridenstine, is recognized 
for his questions.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I'd like to start by showing a brief video clip here.
    [Video shown.]
    Mr. Bridenstine. The tremendous outreach, Administrator 
McCarthy, is one thing, but when you use this outreach 
intentionally to generate nearly a million positive comments on 
your Waters of the United States rule, and not only using that 
outreach from activist groups outside the organization, but I 
have in front of me a newsletter from an EPA manager in it 
looks like Region 5, and it says ``EPA is planning to use a new 
social media application called Thunderclap to provide a way 
for people to show their support for the Agency's proposal.''
    So now you're using social media tools to advocate for your 
agency's proposal, and this Thunderclap program, it's a social 
media aggregator that, you know, includes Facebook and Twitter 
and a host of other social media tools, and you're using your 
employees to advocate for your proposals and activating outside 
activist groups.
    Then before the Senate EPW Committee you testified that the 
EPA's Waters of the United States rule is justified because 
nearly 90 percent of the comments the EPA received favored the 
proposed rule. So you're hijacking the comment process, then 
you're using that data to justify your role before the Senate 
EPW Committee. I'd like to ask you, to your knowledge, did EPA 
engage in a legal analysis to determine whether using 
Thunderclap in this manner violated the Anti-Lobbying Act prior 
to engaging in that activity?
    Ms. McCarthy. There was no question in terms of the Agency 
that we had done and were doing nothing that constituted 
lobbying. That would be against the Anti-Lobbying Act. And it 
is well within the boundaries set by the federal government----
    Mr. Bridenstine. Would you answer yes or no? Did--I'm 
asking you the question. Did you get any legal analysis before 
using Thunderclap and pressuring your employees to use 
Thunderclap--look, I've got the newsletter here----
    Ms. McCarthy. No one's pressured an employee to use 
Thunderclap.
    Mr. Bridenstine. If your agency----
    Ms. McCarthy. I'm not aware of that.
    Mr. Bridenstine. If your agency is using a newsletter 
telling people to sign up for Thunderclap and promote the 
Agency's proposal, would that not be an ethical violation where 
you're using your employees to advocate for your proposed rule?
    Ms. McCarthy. Let's dissect this if we could, sir. The 
question you posed to me was whether or not our use of social 
media was lobbying. It was not. It was education, it was 
outreach, it was getting people engaged, it was exactly what 
everyone tells us to do and it's part of the----
    Mr. Bridenstine. Well, no, this is a different level 
because there is an email here from an employee that was very 
concerned about feeling that kind of pressure, and that 
employee contacted----
    Ms. McCarthy. Well, yeah----
    Mr. Bridenstine. --the Regional Judicial Officer, Assistant 
Deputy of Ethics Official, and there is agreement that this is 
a national concern and it says ``there is agreement that it is 
a problem.''
    Ms. McCarthy. That's why I wanted to dissect this. The 
second question you asked was about an employee who took that 
and actually copied it in and shared it with others in the 
Agency, which was in fact inappropriate and that person has 
been----
    Mr. Bridenstine. It was an agency newsletter, was it not?
    Ms. McCarthy. Not that I am aware of. I don't know what it 
appeared in, sir, but he's been counseled, and as far as we 
know, nobody reacted----
    Mr. Bridenstine. It says from the Weekly DD News Item. I 
would like to know what the Weekly DD News Item is and why it's 
coming from a Regional Director----
    Ms. McCarthy. It was a Division Director who made a 
mistake. He was counseled and I don't want you to get confused 
by EPA's effort to engage people in the work that it's doing 
and get them active in considering how important clean water 
is.
    Mr. Bridenstine. So you do realize that your own Regional 
Judicial Officer, Assistant Deputy Ethics Official says that 
this is a problem.
    My next question for you is what are you doing about that 
problem?
    Ms. McCarthy. There--it is--the information is no--as far 
as I know, he's been counseled to not do that. It should not 
have happened but that has nothing to do with the fact that we 
use social media----
    Mr. Bridenstine. There's two major concerns here. One is a 
potential violation of law with the Anti-Lobbying Act. That's--
I'm a Navy pilot by trade. I currently serve in the Oklahoma 
Air National Guard.
    Ms. McCarthy. Okay.
    Mr. Bridenstine. I fought in the war in Iraq in the 
beginning. Imagine if President Bush during the war in Iraq 
said we need our agency--we need our Department of Defense 
employees to advocate for removing Saddam Hussein. How do you 
think that would respond--we would feel pressure as employees 
of the Department of Defense to do that.
    Now, this is something that your agency has been involved 
in, so the Anti-Lobbying Act is of concern to me and we're 
going to look further into that. I hope we do, Mr. Chairman.
    And number two, putting pressure on employees to promote 
the Waters of the United States rule, maybe that's not a 
violation of law but it's certainly a violation of ethics.
    I'm out of time, Mr. Chairman, and I yield back.
    Chairman Smith. The gentleman is--thank you, Mr. 
Bridenstine.
    And the gentleman from Texas, Mr. Weber, is recognized for 
his questions.
    Mr. Weber. Thank you, Mr. Chairman, and Administrator 
McCarthy, thank you for being here.
    Ms. McCarthy. Thank you.
    Mr. Weber. A couple of questions for you, yes or no. Do you 
know what state has been the number one exporting state in 
about 12 to 14 years running in the country?
    Ms. McCarthy. No, sir.
    Mr. Weber. Texas. Do you know who's been the number one 
job-producing state in many years producing more jobs than all 
the other lesser 49 states combined?
    Ms. McCarthy. Can I guess? Texas.
    Mr. Weber. What do we have for her, Johnny?
    Do you know who has the second-largest environmental 
regulatory agency in the world?
    Ms. McCarthy. Texas?
    Mr. Weber. You got it. TCEQ.
    Ms. McCarthy. Yeah.
    Mr. Weber. Serving on the Texas Legislature I served on the 
Environmental Regulations Committee. Do you know of how good 
Texas' economy is compared to the other what I call lesser 49 
states?
    Ms. McCarthy. I do not know.
    Mr. Weber. It's way up there.
    And finally, do you know what state has its own electric 
grid?
    Ms. McCarthy. Texas does.
    Mr. Weber. You're batting--almost batting a thousand. 
You're doing a good job. Texas is----
    Ms. McCarthy. Don't trick me and ask me a trick question.
    Mr. Weber. Texas does really--you don't want that. Texas 
does really well.
    Mr. Chairman, I have five articles here about the proposed 
rule that I'd like to submit for the record.
    Chairman Smith. Without objection, so ordered.
    [The information appears in Appendix III]
    Mr. Weber. Thank you.
    Administrator McCarthy, you made a statement before the 
Energy and Commerce Committee that the Clean Power Plan is 
``not a pollution control strategy.'' Do you remember making 
that comment?
    Ms. McCarthy. Where did I make that comment, sir?
    Mr. Weber. In front of the Energy and Commerce Committee.
    Ms. McCarthy. I don't know.
    Mr. Weber. Okay.
    Ms. McCarthy. I don't know in what context. It's a carbon 
pollution--
    Mr. Weber. Well, and today it's been your testimony in your 
exchange with Congresswoman Clark and then also with 
Congressman Tonko here that we have a ``moral obligation.''
    Ms. McCarthy. We do.
    Mr. Weber. Is that accurate?
    Ms. McCarthy. To act on climate, yes.
    Mr. Weber. Okay. Well, so at some point you said that the 
EPA was not empowered by the legislation to consider cost. You 
said that today also. But then you come back----
    Ms. McCarthy. No, sir, not on the carbon pollution--
    Mr. Weber. Not on the carbon pollution stance.
    Ms. McCarthy. We actually have to consider cost.
    Mr. Weber. Okay. So if you considered the cost--and I 
believe that this has been titled the most costliest regulation 
in history, okay--why is the EPA imposing these costly 
regulations on the American people when you admitted to the 
Energy and Commerce Committee it's really not about protecting 
the environment?
    Ms. McCarthy. I don't know the context of that, sir, but 
this is not a--one of our most significant cost rules. It 
actually is enormously beneficial.
    Mr. Weber. Okay. Well, let's go on then.
    In 2008 then-Senator Obama was running and he said ``under 
my plan''--it was of a cap-and-trade system--``electricity 
rates will necessarily skyrocket.'' So the President is looking 
forward to driving up--do you remember that comment, by the 
way?
    Ms. McCarthy. I've heard of it.
    Mr. Weber. You've heard that?
    Ms. McCarthy. It was raised to--
    Mr. Weber. Have you seen the YouTube?
    Ms. McCarthy. I may have.
    Mr. Weber. Okay. So you know that that was on his mind to 
drive electricity prices up. And, by the way, that was in 
January of 2008 in an interview by the San Francisco Chronicle.
    Now, the Chairman had the U.S. Energy Information 
Administration do a study and they recently came out and said 
that in fact under the Clean Power Plan, electricity prices 
will be driven up. Are you aware of that, Administrator?
    Ms. McCarthy. I am aware that there are studies that say 
that, yes.
    Mr. Weber. No, but I'm talking about the Energy Information 
Administration. And you know they're bipartisan and you know 
they don't consider cost; they just look at the facts. They're 
not beholden to any government agency. Is that a true fact?
    Ms. McCarthy. That they are independent.
    Mr. Weber. That's right. Thank you.
    Ms. McCarthy. They were asked to do this--
    Mr. Weber. Thank you for saying that. And you're aware in 
their study they said that a family of four could see thousands 
of dollars increase in their electricity prices. I'm an air-
conditioning contractor, 34 years, and I'm glad to hear that 
there are some glad colleagues on the other side of the aisle 
who are glad that we're looking out for poor people. I've been 
in many homes in 34 years where people could not afford air-
conditioning repair, and when their electricity bill goes up 5, 
7, ten percent, it hits them hard. And so we looked at this 
very closely. I'm extremely familiar with energy costs.
    So when the Energy Information Administration came out and 
said--and other stakeholder groups, by the way--that the Clean 
Power Plan and other EPA regulations will increase electricity 
prices for the American people--and let me add based on my 
experience of 34 years as an air-conditioning contractor and 
watching power very carefully--it's going to disproportionately 
impact low-income families. Do you agree with that?
    Ms. McCarthy. We're working very hard to give the States 
the flexibility to not have that happen.
    Mr. Weber. Have you ever been in the homes of low-income 
people when they've had to spend money on their air-conditioner 
that was inefficient?
    Ms. McCarthy. Yes.
    Mr. Weber. Yeah. It's kind of sad, isn't it?
    Ms. McCarthy. Well, what we're hoping is that this will not 
only protect them and their public health-
    Mr. Weber. Let me move on. Let me move on. I'm running out 
of time.
    Ms. McCarthy. Okay.
    Mr. Weber. In fact, I'm out of time.
    Chairman Smith. The gentleman's time--
    Mr. Weber. I'm going to yield back.
    Chairman Smith. --has expired. Thank you, Mr. Weber.
    Now, the gentleman from Ohio, Mr. Johnson, is recognized 
for his questions.
    Mr. Johnson of Ohio. Well, thank you, Mr. Chairman.
    And, Director McCarthy, thank you for being here today. 
I've got a lot of ground to cover so I'd like to--I'm going to 
ask you some very specific questions. They're not--the 
questions themselves are not very complex. The answers are 
pretty much yes-or-no answers. Can we have an agreement that if 
I ask you something that you don't understand, ask me for 
clarification and I'll go back and clarify the question? But I 
want to move through these so we can get through them as many 
as we can. Is that okay with you?
    Ms. McCarthy. I'll do the best I can.
    Mr. Johnson of Ohio. Okay. Great.
    I want to go down the road of the independency. And we've 
heard the term ``independent science.'' We've heard that spoken 
here several times today. According to news reports, including 
a recent New York Times article, the EPA has a pretty cozy 
relationship with third-party environmental groups such as the 
Sierra Club and the NRDC, who are attempting to influence 
agency policy. Given these stories, and I'm sure you've seen 
some of them, is it EPA policy, Director McCarthy, to request 
that these third-party groups write reports to support the 
Agency's position?
    Ms. McCarthy. I don't know of any agency policy that----
    Mr. Johnson of Ohio. Okay. Well, great. Let's have slide #1 
come up.
    [Slide.]
    Mr. Johnson of Ohio. According to this email obtained by 
the Committee, then-EPA Policy Director Michael Goo writes to 
the NRDC that ``maybe a report or two from the NRDC showing 
that no new coal plants are being built might be helpful in 
order to provide cover for a draft EPA rule on new fossil power 
plants.'' Are you surprised that the EPA Policy Director--I 
mean this is a pretty high position--requested that the NRDC 
draft a report related to an EPA rule? Have you ever seen that 
before?
    Ms. McCarthy. No, I haven't seen it.
    Mr. Johnson of Ohio. Okay. So it's----
    Ms. McCarthy. I----
    Mr. Johnson of Ohio. Does it surprise you that the Policy 
Director would ask an outside group to do something like that?
    Ms. McCarthy. Well, I--you know, I assume he's had 
communication. I was not aware----
    Mr. Johnson of Ohio. Well, would you take that----
    Ms. McCarthy. --of it and I haven't seen this before.
    Mr. Johnson of Ohio. Would you take that and get back to us 
about how that conflicts with--if it's not your policy, if it's 
not the EPA's policy to do that----
    Ms. McCarthy. Well, you asked me----
    Mr. Johnson of Ohio. --did he violate the policy?
    Ms. McCarthy. --if I had a policy that to be able to do 
that----
    Mr. Johnson of Ohio. Yeah, right.
    Ms. McCarthy. --and I answered that.
    Mr. Johnson of Ohio. Would you say based on this that the 
EPA does indeed have a cozy relationship with the these outside 
groups if the Agency is asking them to write reports providing 
cover for an EPA draft rule?
    Ms. McCarthy. Well, all I know is that our rulemaking 
process is transparent, it's robust----
    Mr. Johnson of Ohio. Well, no, it's not transparent----
    Ms. McCarthy. It----
    Mr. Johnson of Ohio. --because you're not getting comments 
from----
    Ms. McCarthy. This is not out of the rulemaking process.
    Mr. Johnson of Ohio. --outside groups other than like the 
NRDC. So do you think it's appropriate that the NRDC is 
providing cover in their reports for proposed rules?
    Ms. McCarthy. The--I think it's appropriate that EPA 
continue to do rulemaking the way it does----
    Mr. Johnson of Ohio. Well, I understand it's your job is to 
do rulemaking. The question is how transparent and how 
independent is it really? Is this the only time you are aware 
that an EPA official has ever requested a third-party group 
write a report regarding an EPA rule? Have you ever had this 
happen before?
    Ms. McCarthy. I can't----
    Mr. Johnson of Ohio. Have you ever requested a report from 
a third-party group asking for a report while at the EPA?
    Ms. McCarthy. I can't----
    Mr. Johnson of Ohio. Let's have slide #2 come up, please.
    [Slide.]
    Mr. Johnson of Ohio. Administrator McCarthy, it appears 
that EPA Policy Director Michael Goo maintained a very close 
relationship with third-party groups, even inviting employees 
from the League of Conservation Voters and NRDC to his house 
for an annual party known as the Goo Fest. According to the 
invitation, the party offered shots of liquor off of an ice 
luge and copious amounts of food and alcohol. Included in the 
invitation is an apparent fake quote from President Obama 
stating ``even better than killing bin Laden, I'm jealous I 
don't have an Obama Fest.'' Are you familiar with Goo Fest?
    Ms. McCarthy. I have never been to a Goo Fest.
    Mr. Johnson of Ohio. But are you familiar with it? Are you 
familiar with it?
    Ms. McCarthy. I am aware that he has----
    Mr. Johnson of Ohio. Okay. Would you agree----
    Ms. McCarthy. --a party every year.
    Mr. Johnson of Ohio. --that inviting these third-party 
groups from the EPA Policy Director, the League of Conservation 
Voters, and NRDC, would you agree that that shows a close, cozy 
relationship with these folks? And do you think it's 
appropriate for someone that's responsible for directing EPA's 
policy to host a party that includes attendees attempting to 
influence the Agency's parties?
    Ms. McCarthy. I would agree that Michael Goo knows a lot of 
people in the----
    Mr. Johnson of Ohio. No, do you agree----
    Ms. McCarthy. I have no----
    Mr. Johnson of Ohio. --that it's appropriate?
    Ms. McCarthy. I have no reason to believe that this was 
about influencing----
    Mr. Johnson of Ohio. Oh, really.
    Ms. McCarthy. --rulemaking, nor is there any evidence 
that----
    Mr. Johnson of Ohio. Let's--well, let's go to slide #3. 
Let's go to slide #3.
    Well, Mr. Chairman, I am so sad that we're out of time it 
because I had a lot more that I wanted to cover. But out of 
deference to my colleagues, I'll yield back.
    Chairman Smith. Thank you, Mr. Johnson.
    The gentleman from Michigan, Mr. Moolenaar, is recognized 
for questions.
    Mr. Moolenaar. Thank you, Mr. Chairman. And, Administrator 
McCarthy, thank you for being here.
    Ms. McCarthy. Thank you.
    Mr. Moolenaar. I wanted to ask you a bit about the Waters 
of the United States rule.
    Ms. McCarthy. Um-hum.
    Mr. Moolenaar. Do you believe that it expands the EPA's 
jurisdiction in this area?
    Ms. McCarthy. No, I do not, sir.
    Mr. Moolenaar. You do not believe that?
    Ms. McCarthy. No. No, sir.
    Mr. Moolenaar. Do you feel that you will need additional 
funding to meet any new responsibilities based upon this rule?
    Ms. McCarthy. Hopefully, it provides clarity to actually 
reduce the level of effort on all parties, including people who 
actually want to get work done and need a permit. Its goal was 
to provide clarity, reduce confusion, and save money, as well 
as continue to protect the waters that are necessary for 
drinking water.
    Mr. Moolenaar. And do you believe the rule was successful 
in providing clarity?
    Ms. McCarthy. It--certainly that was its intent and I 
believe we did, yes.
    Mr. Moolenaar. I want to read you some quotes from someone 
who has 20 years of experience in the field. And it's a 
gentleman who testified before our Committee, Bob Kerr of Kerr 
Environmental Services Corporation. And his comments were, 
``unfortunately, the rule falls well short of providing the 
clarity and certainty that the regulated community seeks. This 
rule will increase federal regulatory power over private 
property and will lead to increased litigation, permit 
requirements, and lengthy delays for any business trying to 
comply. Equally important, these changes will not significantly 
improve water quality because much of the rule improperly 
encompasses water features that are already regulated at the 
state level.''
    Would you--how would you respond to those comments?
    Ms. McCarthy. I would disagree with every one of them.
    Mr. Moolenaar. Okay. And I wanted to read another quote to 
you. ``The only thing that is certain is how difficult it will 
be for me to provide jurisdictional determinations and secure 
permits for my clients. This rule is so convoluted that even 
professional consultants with decades of experience will 
struggle to determine what is jurisdictional.''
    How do you respond to that statement?
    Ms. McCarthy. The reason we did this rule was because many 
in Congress and outside stakeholders asked us to do the rule to 
provide clarity. I believe we did that.
    Mr. Moolenaar. Well, I understand because in your comments 
you make certain--you know, you mentioned your goal was to 
provide clarity.
    Ms. McCarthy. Right.
    Mr. Moolenaar. But I guess I'm trying to reconcile that 
with someone who has 20 years of experiences, is in advising 
businesses and people who are trying to comply with the law 
that is telling us that it does not provide clarity----
    Ms. McCarthy. You'll--
    Mr. Moolenaar. --and adds confusion.
    Ms. McCarthy. Yeah. I--you'd have to speak with him because 
this rule actually says what's in, what's out, and boundaries 
for where you need to have--need to look.
    Mr. Moolenaar. Okay.
    Ms. McCarthy. Those things have not been clear for 15 or 
more years.
    Mr. Moolenaar. In the area of--I wanted to ask you about 
ditches.
    Ms. McCarthy. Yes.
    Mr. Moolenaar. You've made a point that ditches are not 
included as jurisdictional in the final Waters of the United 
States rule. Is that correct?
    Ms. McCarthy. No, I have made it very clear that we have--
that we are only including ditches that act as tributaries that 
are important to protect and we have added specific exclusions 
to make it clear that ditches that only run once in a while 
that are only there for irrigation purposes, all of those 
issues, that we maintain all of those exclusions and we've 
added some for clarity purposes to try to get the ditch issue 
off the table.
    Mr. Moolenaar. And so if a farmer or, you know, a business 
or a local government believes that their ditch is exempt, do 
they have to ask for an exemption or----
    Ms. McCarthy. No.
    Mr. Moolenaar. --can they consider that they have an 
exemption?
    Ms. McCarthy. Yeah. It is exempt. And the other thing we 
did was to very carefully and more narrowly craft what is a 
jurisdictional tributary so that anyone could clearly look at 
it and make those determinations and so that it would limit the 
amount of time of the Corps and it would provide certainty to 
the farmers and ranchers out there.
    Mr. Moolenaar. Okay. So if someone believes they are 
exempt, they are exempt and they will not have a ruling from 
the EPA that counters that?
    Ms. McCarthy. The only reason you would ever come to the 
federal government is if you want to pollute or destroy a 
wetland or a water body that you think may be jurisdictional. 
That's when they come and ask. But it--but agriculture now 
knows--
    Mr. Moolenaar. Let me just interrupt you a second because 
we're low----
    Ms. McCarthy. Yeah.
    Mr. Moolenaar. --on time, that ``we think may be 
jurisdictional,'' when you say ``we''----
    Ms. McCarthy. An individual who wants to pollute or destroy 
a water.
    Mr. Moolenaar. But if the individual doesn't believe it's 
jurisdictional----
    Ms. McCarthy. They don't call us.
    Mr. Moolenaar. And you would not by any way have recourse 
on them because they didn't call you and ask if it was 
jurisdictional?
    Ms. McCarthy. Well, what we tried to do here was to make it 
is clear--
    Mr. Moolenaar. No, but I'm----
    Ms. McCarthy. --as possible--
    Mr. Moolenaar. Right. But if----
    Ms. McCarthy. --so that farmers and those in agriculture 
would actually know and feel comfortable that what they were 
doing was absolutely all right.
    Mr. Moolenaar. And if you disagreed, you would not have 
recourse on them?
    Ms. McCarthy. I don't--you know, we've tried to make it is 
clear as humanly possible--
    Mr. Moolenaar. No, but----
    Ms. McCarthy. --so those are disagreements would be----
    Chairman Smith. The gentleman's time has expired.
    Ms. McCarthy. --minimized.
    Chairman Smith. I thank the gentleman.
    The gentleman from California, Mr. Knight, is recognized 
for his questions.
    Mr. Knight. Thank you, Mr. Chairman. Thank you, 
Administrator McCarthy.
    I'm going to go on a couple different lines, but one I want 
to follow up with the recent discussion, if we go back to our 
farmers and we say that if you look at these ditches and you 
believe that you are not polluting these waterways, these 
temporary waterways, these ditches, you are okay and there's no 
reason why the federal government should come onto your 
property and check these ditches out?
    Ms. McCarthy. We have done nothing other than to hopefully 
provide clarity on what constitutes a tributary and what does 
not.
    Mr. Knight. Okay. Okay. I'm going to move on to California. 
Since all of my Texas folks are yelling and screaming about 
their state, I will talk about California a little bit. In a 
recent article, there was some discussion. I'm going to read 
very quickly just a couple lines. ``Indeed, in some localities, 
especially in the western states, the new standards are 
approaching background levels of ozone, in other words, the 
level that occurs due to factors beyond local control. While 
EPA claims that their exceptional events exclusion is 
responsive to the concern, many states believe that EPA's tools 
to address these concerns are limited and inadequate. These 
concerns are spread throughout the United States and are not 
limited to specific geographic regions.''
    In California, we know that we have an awful lot of 
background or other things that happen to our state----
    Ms. McCarthy. Right.
    Mr. Knight. --that we really don't have any control of, 
countries and----
    Ms. McCarthy. Yeah.
    Mr. Knight. --different things that happen to our ozone. By 
this statement in this article, are that a true statement? Is 
the exclusionary rule for states like California--are we 
getting our bang for the buck on that?
    Ms. McCarthy. Yeah, I think they're referring to what we 
call exceptional events, which is to take into recognition that 
things happen that are out of states' controls. So we have 
recently done one just maybe a few years ago that clarified 
dust issues, you know, all of the ways in which you can have 
dust storms arise, and that seems to have resolved a lot of 
issues. We also know there are issues with wildfires that we 
have to address. That is actually going to be a rulemaking that 
we're moving forward with so that it doesn't interfere with the 
states' ability to be able to make attainment. So we're really 
trying hard.
    Mr. Knight. Okay. And that----
    Ms. McCarthy. And there are other tools that we can use as 
well.
    Mr. Knight. And that'll follow up on another article that 
I'd like to be put into the record, Mr. Chair. It's from the 
San Joaquin Valley Air Pollution Control District, and we have 
many control districts, air pollution, air quality management 
districts in California that are very restrictive----
    Ms. McCarthy. They work hard----
    Mr. Knight. --very difficult. Our south coast and San 
Joaquin are two very difficult ones because of all of the 
mitigating factors and the background that happens to these 
two.
    But it was brought up from the San Joaquin that pending 
standards for ozone and standards for PM2.5 require different 
deadlines and different attainments. And their solution or 
their worries is that sometimes when they get new regulations 
or new attainments that the old ones do not fall off and that 
they have to continue to take those reports and those kinds of 
standards. Is that something that we can correct at the EPA?
    Ms. McCarthy. Well, we're really trying to make two things 
happen. One is to enhance the states' ability to do multi-
pollutant plans so that they don't do separately PM and ozone 
but think about them together so that a similar strategy can be 
available for both. But we also take a look at how we can more 
effectively and quickly deal with re-designations so that those 
that have achieved the standards have an ability to not be 
captured in constant SIP world, State Implementation Plan 
world.
    It is challenging because we know that we don't want the 
states to stop doing things that they were obligated to do that 
got that achievement there----
    Mr. Knight. Yeah.
    Ms. McCarthy. --but it's hard to keep that and then move 
forward with continuous improvements.
    Mr. Knight. I would ask that if you could allow the states 
to be able to get these attainments by their----
    Ms. McCarthy. Yeah.
    Mr. Knight. --by working on a standard that works for their 
state----
    Ms. McCarthy. Yeah.
    Mr. Knight. --and maybe letting them work with their 
districts, whether it be California Air Resources Board or 
whoever in the other 49 states. It might be----
    Ms. McCarthy. I know how hard they work----
    Mr. Knight. --helpful.
    Ms. McCarthy. Yeah.
    Mr. Knight. And secondly, if we can make it so that they 
understand what they're doing every year and they don't have to 
continually look back and continually do the things that maybe 
have been required of them in years past. That would make it a 
lot more helpful.
    Ms. McCarthy. I assure you we will do the best we can. I 
know how hard they work and how much they care about the same 
things that you and I do.
    Mr. Knight. And thank you, Administrator, for coming in and 
I yield back the balance of my time.
    Mr. Bridenstine. [Presiding] The gentleman yields back.
    The gentleman from Texas, Mr. Babin, is recognized for five 
minutes.
    Mr. Babin. Thank you, Mr. Chairman.
    Mrs. McCarthy, I would like to put something up on the 
screen to show a picture.
    [Slide.]
    Mr. Babin. This is Houston, Texas, which I have in my 
district, part of. It shows the twice-a-day traffic for 
commuters for two million people in the City of Houston, twice 
a day. Under your regulations and the Clean Air Act for traffic 
conformity, we would not be able to expand or add new lanes 
since most of my district, including Harris County, which we're 
looking at here, is not in attainment under the current 
standards, much less under the new proposed rules. I would ask 
you, do you think this is a good idea when Houston, Texas, is 
one of the fastest-growing cities and areas in the entire 
country, that we cannot add any lanes to these thoroughfares 
here?
    Ms. McCarthy. I was looking to see myself in that picture. 
I've been stuck there before.
    Mr. Babin. I may be in there, too.
    Ms. McCarthy. We work very hard when there are construction 
issues that arise, new lanes they need to be added, to work 
through the traffic conformity issues. It is not a carte 
blanche ban on doing new roadways.
    Mr. Babin. So you're saying that we--that the City of 
Houston, the County of Harris would be able to add lanes to 
this----
    Ms. McCarthy. Just because you're in----
    Mr. Babin. --thoroughfare?
    Ms. McCarthy. --nonattainment does not mean that you 
can't----
    Mr. Babin. Okay. That's fine.
    Ms. McCarthy. --move forward. It just means we have to work 
together to make that happen.
    Mr. Babin. I got you. I'm going to remember that, okay? I'm 
going to tell the folks back home that we can add lanes.
    Ms. McCarthy. Well----
    Mr. Babin. Let me tell you how many jobs are at stake with 
this new regulation, which will cost the American people, as 
we've heard today but I'd like to say it again, $140 billion 
every year, with a B. EPA's new proposed regulations would cost 
my home State of Texas $286 billion--now, this is over the next 
20 years, 23 years up until 2040, $286 billion in gross state 
product losses. It will cost us 347,322 lost jobs per year, 
$1,430 drop in average household consumption per year, and $39 
billion, with a B, for my constituents in Texas to operate 
their vehicles in those 23 years as well.
    This will be one of the most costly regulations ever issued 
in history for the American public and especially for my home 
State of Texas. I have one of the most highly industrialized 
districts in the country. If one of my constituents loses their 
job because of this regulation, what would you say to him or 
her? Because these folks are needing to provide jobs--needing 
their jobs to provide for their families. And how can you 
justify this? Give me a short answer, please.
    Ms. McCarthy. Well, sir, I don't know what numbers you're 
looking at that----
    Mr. Babin. These are numbers that came from the National 
Association of Manufacturers. These came right off of here as 
well.
    Ms. McCarthy. These are the exact--they might as well have 
recycled them from the last time we did and ozone standard and 
it wasn't true then and it is not true now.
    Mr. Babin. Well, why are all these stakeholders, thousands 
of them, saying that----
    Ms. McCarthy. Yeah.
    Mr. Babin. --they can't come into compliance, that they're 
going to have to shut their plants down, that this is going to 
cause him to lay off employees?
    Ms. McCarthy. Well----
    Mr. Babin. As we heard----
    Ms. McCarthy. Yeah.
    Mr. Babin. As we heard Mr. Weber say a while ago in the 
State of Texas we have provided more than 50 percent of the 
jobs in the entire country over the last five years.
    Ms. McCarthy. Well, we've followed appropriate----
    Mr. Babin. This will eliminate a lot of that.
    Ms. McCarthy. We've followed appropriate economic impact 
work. It's available to you. But I think one of the things that 
no one seems to recognize is that the vast majority of counties 
across the United states are actually going to be in attainment 
with the new standard that's revised by 2025----
    Mr. Babin. I beg to differ with you----
    Ms. McCarthy. --just because of what we're doing at the 
national level.
    Mr. Babin. --Ms. McCarthy. I beg to differ with you. We 
have a map here that shows that immediately we will be out of 
attainment. In fact, it's so severe that even Yellowstone 
National Park will be out of attainment immediately because of 
the new ozone regulations that you're proposing.
    Ms. McCarthy. I'm happy to take a look at it, sir, if you 
want to provide that to me.
    Mr. Babin. I hope you will. I hope you will.
    And I yield back the balance of my time, Mr. Chairman. 
Thank you.
    Mr. Bridenstine. The gentleman yields back.
    And just to clarify, states and localities can lose 
transportation funds from the Department of Transportation----
    Ms. McCarthy. They can.
    Mr. Bridenstine. --for new roads and bridges if an area is 
in nonattainment. That directly affects my good friend from 
Texas, Mr. Babin's district, as well as my own district in 
Oklahoma.
    Ms. McCarthy. Can but----
    Mr. Bridenstine. I now recognize the gentleman from 
Alabama, Mr. Palmer, for five minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Administrator McCarthy, from your--from the EPA--your 
agency wrote that EPA projections show that the vast majority 
of the U.S. counties would need to propose standards by 2025 
just for the rules and programs now in place or underway. Is 
that correct?
    Ms. McCarthy. That is correct.
    Mr. Palmer. Then is it also correct that the EPA has just 
now--or just earlier this year started releasing guidelines for 
implementing the 2008 rule?
    Ms. McCarthy. That is actually true, sir, yes.
    Mr. Palmer. Then why in the world are we talking about a 
new standard which the EPA, based on a past hearing here, 
admitted the technology doesn't exist to meet this new 
standard, why--have--are you implementing a new standard when 
you haven't even implemented the last one?
    Ms. McCarthy. Well, sir, there are still remaining a number 
of standards on--and this is actually an effort to do what--
    Mr. Palmer. Ma'am, I don't want to get into----
    Ms. McCarthy. Well, Congress told us to do this, sir. It is 
an effort to continue to look at the science--
    Mr. Palmer. So if Congress----
    Ms. McCarthy. --as to what the goals are--
    Mr. Palmer. You're doing it because Congress told you to do 
it?
    Ms. McCarthy. Well, I--
    Mr. Palmer. That's a yes or no. Are you doing it because 
Congress instructed you to do it?
    Ms. McCarthy. Yes, but for more reasons than that. Yes--
    Mr. Palmer. Well, wait.
    Ms. McCarthy. --that is what--that is my obligation.
    Mr. Palmer. Your authorization for this is from Congress, 
is that correct?
    Ms. McCarthy. It is and--
    Mr. Palmer. Okay. So if Congress----
    Ms. McCarthy. --I've actually been told that--by the 
Courts--
    Mr. Palmer. --if Congress tells you not to do it----
    Ms. McCarthy. --to do this.
    Mr. Palmer. --you wouldn't do it?
    Ms. McCarthy. I did not say that.
    Mr. Palmer. No, no, but you said you go that authorization 
from Congress----
    Ms. McCarthy. I told you that I'm operating under the 
authority and the law that you gave me to implement.
    Mr. Palmer. --to do it.
    Ms. McCarthy. I'm implementing your laws.
    Mr. Palmer. Okay. So if we change the law, you won't do it. 
Thank you.
    I would like to talk about the impact on low-income 
families. I grew up dirt poor so I get this. I'd just like to 
point out--and you're probably aware of it but I imagine most 
people aren't--that the National Black Chamber of Commerce has 
come out strongly against this, and let me read you what they 
said. The EPA regulations--and if they will put up slide #1, 
please.
    [Slide.]
    Mr. Palmer. They say that the ``EPA regulations will 
increase Hispanic poverty by more than 26 percent and black 
poverty by more than 23 percent.'' This first slide shows the 
increases in energy burdens on black and Hispanic households 
who are disproportionately low income. If you'll put up the 
next one----
    [Slide.]
    Mr. Palmer. --this shows losses in median household 
incomes, again disproportionately impacting black and Hispanic 
households.
    Put up the next slide, please.
    [Slide.]
    Mr. Palmer. This shows the projected job losses, okay? For 
black families by 2025 we're talking 2.2 million job losses; by 
2035, 7 million. Among Hispanics, 3.8 million by 2025; by 2035, 
we're talking 12 million. If you put up the next slide----
    [Slide.]
    Mr. Palmer. --this shows the increase in the poverty rate 
for black households and Hispanic households. And again, 
reading from the National Black Chamber Of Commerce report, 
``the EPA regulations will increase Hispanic poverty by more 
than 26 percent and black poverty by more than 23 percent.'' 
Ma'am, I don't know how you justified this because it does 
create an enormous economic burden. It's having an enormous 
impact on jobs. The Economic Policy Institute, which is a left-
leaning group, they basically are labor's think tank, points 
out that 29 percent of the unemployed--the current unemployed 
have been out for 27 weeks or more. Ma'am, that's over six 
months.
    We're looking at a report from Gallup that shows that prior 
to 2008 there were approximately 100,000 more businesses 
starting up than closing. Since 2008, we're now seeing 70,000 
more businesses close than startup. And the United States now 
in terms of how we rank with other industrialized nations in 
terms of entrepreneurship, job creation, we don't rank first, 
second, third. We rank 12th.
    And I want to quote from an article from USA Today that--in 
trying to explain these two--in their words--``terrifying 
trends,'' the death of so many businesses and the dearth of new 
ones, it says there are numerous factors but one of the most 
obvious is America's ever-growing regulatory state. And I've 
sat here now for--since we started this hearing listening to 
you basically deny that there is an economic impact. You've 
even asserted that there's going to be an economic benefit. 
We've had numerous hearings on these--on the ozone rule, on the 
Clean Power Plan, and there's been several people testified 
that this is all justified for health benefit, but here's a 
study.
    And, Mr. Chairman, I'd like to submit all of these for the 
record if I may.
    Mr. Bridenstine. Without objection, so ordered.
    [The information appears in Appendix III]
    Mr. Palmer. Here's an article in the American Journal of 
Public Health that makes the point that the single biggest 
predictor of a--in terms of respiratory health is income, and 
obviously I think you would agree, wouldn't you, that income is 
directly related to job status. Would you agree with that?
    Ms. McCarthy. It sounds right.
    Mr. Palmer. Thank you, Madam.
    Mr. Chairman, I yield the balance of my time.
    Mr. Bridenstine. The gentleman yields back.
    The gentleman from Georgia, Mr. Loudermilk, is recognized 
for five minutes.
    Mr. Loudermilk. Thank you, Mr. Chairman, and, Ms. McCarthy. 
Thank you for being here. We're near the end. We're the low 
guys on the totem pole.
    I chair the Subcommittee on Oversight, and just in the 
short time that I have been here we've asked numerous times for 
documents from your department and your office and continually, 
as mentioned earlier, rarely get those. But I was informed, as 
we were walking in, that coincidently we did receive a bunch of 
documents just before your testimony here today. And you 
actually mentioned in one of your responses that you have 
produced 15,000 documents to the Committee. If we could bring 
up slide one.
    [Slide.]
    Mr. Loudermilk. And we appreciate that but what I have are 
here is an illustration of just one page of 2,000 of these 
pages of document which is incoherent garbage. It's garble. It 
makes no sense. And so I just want to bring this to your 
attention. This is 2,000 pages of the 15,000 that are just like 
this. Either this is insulting, that there's no respect for 
this Committee, we're just going to send them documents, or 
it's a political statement. It let's just--let's shut these 
guys up and move on.
    But I'll move on from that now. I do want to talk about 
economic impact. Regulations that have an impact on the 
American economy greater than $100 million are deemed 
economically significant. And Executive Order 12866, which was 
imposed in 1993 by the Clinton Administration, requires that 
agencies conduct a Regulatory Impact Analysis in which costs 
and benefits of economically significant rules are analyzed, as 
well as an analysis of potentially effective and reasonably 
feasible alternatives for these rules.
    Now, yes or no, Administrator McCarthy, when the EPA sent 
the proposed Waters of the United States rule to the Office of 
Management and Budget for review in 2013, did the OMB deem the 
rule to be economically significant, meaning that it would have 
an economic impact of greater than $100 million? Yes or no?
    Ms. McCarthy. I'm--I don't know the answer to that, sir, 
but I--give me a second and I can look it up.
    Mr. Loudermilk. Okay. So it's--something as big as the 
Waters of the United States, we're unaware of whether it would 
have an economic impact of over $100 million? That seems that 
the--that should be something that we would know right away.
    Ms. McCarthy. Actually, sir, the challenge for us is that 
it has no direct impact on the economy. The costs come in when 
it's actually being implemented.
    Mr. Loudermilk. So did the OMB----
    Ms. McCarthy. This is the rule that determines 
jurisdiction.
    Mr. Loudermilk. But did----
    Ms. McCarthy. It's not a rule that requires action.
    Mr. Loudermilk. Did the OMB determine whether it was 
economically significant when you first requested it? That's 
the question.
    Ms. McCarthy. I don't know, sir.
    Mr. Loudermilk. You don't know.
    Ms. McCarthy. I'll have to get back to you.
    Mr. Loudermilk. Okay. If----
    Ms. McCarthy. I can----
    Mr. Loudermilk. If the EPA--well, if the OMB had indeed 
determine it was economic significantly--significant, would the 
EPA have conducted a Regulatory Impact Analysis, which is 
required?
    Ms. McCarthy. Yes. Yes.
    Mr. Loudermilk. Yes, you would have. Can we bring up slide 
#1?
    [Slide.]
    Mr. Loudermilk. I'd like to show you a series of emails 
that were produced to the Committee by EPA regarding the 
proposed Waters of the United States rule and its 
classification by the OMB as being economically significant. In 
this slide, this email, the Office of General Counsel, lawyer 
Stephen Neugeboren and Acting Deputy Director of the Office of 
Water Dave Evans discuss OMB's determination that the Waters of 
the United States rule is economically significant. David Evans 
writes, ``economic assessment identified in direct costs that 
are well above $100 million a year, I think EPA has claimed the 
indirect effects of a definitional rule should not be used to 
trigger the monetary threshold identifying economically 
significant policy actions.'' Jim Laity, who is at the OMB, 
seems to have decided otherwise.
    So it's clear that the OMB initially had determined that it 
is well above $100 million impact. So is it the EPA's belief 
that if a rule has indirect economic impacts of $100 million or 
more, it should not be deemed economically significant?
    Ms. McCarthy. You should not be surprised that we often 
have back and forth with OMB. I would not consider that to be a 
determination----
    Mr. Loudermilk. Okay. If we could go to the next slide.
    [Slide.]
    Mr. Loudermilk. In this email the EPA Office of Water 
employee Jim Pendergrass writes ``Nancy''--who is Nancy Stoner 
and Ken Kopocis--``know that a Regulatory Impact Analysis may 
be necessary but there are some economically significant rules 
from EPA that haven't had an RIA,'' which is required according 
to the Executive Order we cited earlier. But he's stating here 
that there are some economically significant rules from EPA 
that haven't had an RIA. ``They are checking with the Office of 
Policy to see if there was some agreement at the political 
level that we don't have to conduct an RIA,'' an RIA that is 
required by law.
    The response to this email states ``Good news. Tamika and 
Sandy talked to Ken and Ken has said that it has been agreed we 
do not need an RIA. Let's leave it at that.''
    So there was a political decision made that you don't need 
to do what law says that you have to do. So this email appears 
to show EPA made a political decision not to conduct a formal 
Regulatory Impact Analysis----
    Ms. McCarthy. Maybe the way you're reading it. I don't 
think that's what----
    Mr. Loudermilk. --for the proposed Waters of the United 
States. Who made that decision? Who made the political decision 
that you don't have to follow what the law says you have to 
follow? Was it the White House?
    Mr. Bridenstine. We'll have to take that for the record. 
The gentleman's time is expired.
    Mr. Loudermilk. I would like to submit all the documents I 
have for the record.
    Mr. Bridenstine. Without objection, so ordered.
    [The information appears in Appendix III]
    Mr. Loudermilk. Thank you, Mr. Chairman.
    Mr. Bridenstine. You bet.
    The gentleman from Louisiana, Mr. Abraham, is recognized 
for five minutes.
    Mr. Abraham. Thank you, Mr. Chairman.
    Thank you, Ms. McCarthy, for being here. Mr. Chairman, I 
would also like to submit a letter that 22 healthcare 
professionals have signed that would argue against EPA's stance 
on the health benefits of these decreased ozone layers. So if 
you would let me admit that, I would appreciate that.
    Mr. Bridenstine. Without objection, so ordered.
    [The information appears in Appendix III]
    Mr. Abraham. Ms. McCarthy, I am a physician and a scientist 
and I would appreciate any raw data you could give me because I 
can interpret them and I can certainly make my own decisions as 
to the raw data that some of our colleagues on the other side 
of the aisle said that we weren't probably I guess able to 
interpret, but I assure you I can. So if you could get that to 
me, I would appreciate it.
    Ms. McCarthy. Actually, we've provided the data that the 
Chair requested and it's available for you already.
    Mr. Abraham. I will look at that.
    Now, the other thing Ms. Johnson the Ranking Member in her 
opening statements referenced the integrity of the EPA. And I 
just want to make a comment on that. As you are probably aware 
that last week there was an article that came out that said 
that your senior counsel for Air and Radiation who you 
referenced in this hearing was given by the Centers of American 
Progress, a far-left organization, some talking points for 
journalists when you were trying or when he was trying to move 
up positions so to speak.
    So, again, as a physician, as a scientist that looks a raw 
data and makes decision, I'm troubled to say the least when one 
of your people, who I'm sure are quite capable of coming up 
with their own opinions, are being influenced by those on one 
side or the other.
    Now, saying that, you also have referenced increased 
tornadoes, hurricanes. I'm from Louisiana and I assure you we 
know hurricanes. But it also last week--and I think it was a 
Nobel-winning physicist Dr. Ivar Giaever, who used to be on 
President Obama's team of environmentalists, came out and said 
that President Obama is ``dead wrong'' on this global warming. 
And these are his words; these are not mine.
    So again, if you can give me objective data where we 
certainly have seen increased tornadoes and hurricanes in the 
last five years, I would be happy to receive them.
    And I want to--let's go back to asthma. Again, you have 
referenced this. As a physician, as a scientist, I do read a 
lot of epidemiology journals, and prior to this hearing I 
referenced the American Journal of Epidemiology volume 156, 
issue 10, page 977 to 983. And what I was looking at, looking 
at your testimony and what the EPA is going to tout was that, 
well, if we got increased ozone, if we don't reduce these ozone 
layers, we're going to have an increased incidence of asthma 
and upper respiratory conditions.
    Let me just state that Beijing, China, one of the filthiest 
cities in the world, I'm told, as far as air quality, has a 
prevalence of lifetime asthma of only 2.2 percent. California 
is 13.8. And these are despite decreased ozone layers in the 
United States. Now, I have treated thousands of cases of asthma 
in the Louisiana Delta myself and we have some pretty clean air 
down there. We're in the farming community. And I understand 
the American Lung Association has kind of got on the bandwagon 
for the EPA as to saying, well, increased ozone layers--or 
numbers could contribute to that. Well, it could; anything 
could. But if you look at the objective data, you have to take 
in to consideration pets, dust mites, pollen count, these types 
of things.
    So I guess the question to you is do you know what 
percentage increase in asthma there has been over the last few 
decades? I've got a slide if you want to put it up there.
    [Slide.]
    And if you look at the slide, Ms. McCarthy, you see that 
asthma rates have dramatically increased, and this is despite 
decreasing ozone. So I guess I would ask for your comment on 
that.
    Ms. McCarthy. Well, I don't think that the scientists at 
this point are saying that asthma is caused by ozone.
    Mr. Abraham. No, I agree.
    Ms. McCarthy. The issue is that it's exacerbated.
    Mr. Abraham. Well, but objective data cannot prove that, 
and again, I can talk to any scientist you want and give me 
objective data, begin me some good points to argue here I 
guess. I've got a chart here that shows--that begs to differ.
    Ms. McCarthy. It exacerbates the impacts of asthma because 
it impacts----
    Mr. Abraham. But anybody--you can say that, Ms. McCarthy, 
but you've got to prove that----
    Ms. McCarthy. Oh, okay.
    Mr. Abraham. --in the scientific community, and these 
numbers just don't add up. And that's my point. I don't mind 
looking at good numbers, but I'm looking at an asthma increase 
with decreased ozone levels. We know they're decreasing since 
the Clean Air Act back 20 years ago.
    Ms. McCarthy. We have not made any--the scientists actually 
have not made any connection between levels of ozone and the 
prevalence of asthma.
    Mr. Abraham. Well----
    Ms. McCarthy. It exacerbates the impact because it makes it 
more difficult for asthmatics.
    Mr. Abraham. You can say that but you cannot prove that. 
And again, you want to go back----
    Mr. Bridenstine. The gentleman's time is expired.
    Mr. Abraham. Thank you, Mr. Chairman.
    Mr. Bridenstine. Okay. So what we're going to do now is 
we're going to move into a second round of questioning. We have 
a vote on the Floor of the House right now. It's a single vote 
so I'm going to chair the hearing here for this second round 
and I'll be replaced here in a few minutes when one of my 
colleagues comes back after having voted.
    So moving into the second round, Ms. McCarthy, a couple 
things I'd like--given some of the comments that we've heard so 
far, it is true that cities, municipalities, states have--they 
can lose their Department of Transportation funds if not in 
compliance with the EPA. That is absolutely true. Do you agree 
with that?
    Ms. McCarthy. They can.
    Mr. Bridenstine. They can. And what that means is that if 
they can, that means they're being bullied. This is federal 
bullying and this is exactly what my constituents in the State 
of Oklahoma are absolutely--they are abhorred by this kind of 
federal bullying saying that you're going to lose your 
Department of Transportation funds if you don't comply with 
what an unelected, you know, government bureaucrat tells you to 
do. They are abhorred by that. You can argue but they are 
abhorred by that.
    Ms. McCarthy. That is not a rulemaking. That is in the law 
and it's never, ever happened.
    Mr. Bridenstine. And as far as----
    Ms. Johnson of Texas. Mr. Chairman----
    Mr. Bridenstine. The gentlelady is recognized.
    Ms. Johnson of Texas. For an inquiry. I'm the only person 
on the side and I have to vote. Can you recess long enough for 
us to vote?
    Mr. Bridenstine. We're going to keep rolling because we've 
all got other places to be so we're just going to keep moving 
through.
    Ms. Johnson of Texas. A vote supersedes and the rules say 
that we can recess for a vote.
    Mr. Bridenstine. We have plenty of time. We'll get there. 
So I'm going to reclaim my time moving forward. As far as the 
economic impact, people say that this is somehow going to grow 
the economy, that these rules and regulations grow the economy. 
This has not been historical precedent. It's not the fact.
    My question for you, Ms. McCarthy, in November of 2014 you 
had an op-ed and you stated that the Clean Air Act requires EPA 
to update air quality standards every five years. I'm going to 
repeat that. ``Requires the EPA to update air quality standards 
every five years.'' However, in your testimony today you state 
that the Clean Air Act calls for the EPA to review the 
standards.
    Ms. McCarthy. Um-hum.
    Mr. Bridenstine. Do you acknowledge there's a difference 
between update and review?
    Ms. McCarthy. No. I mean it--you update it on the basis of 
science----
    Mr. Bridenstine. So when you review it to----
    Ms. McCarthy. --exactly the same level----
    Mr. Bridenstine. When you review it and you do a cost-
benefit analysis and you come to a determination----
    Ms. McCarthy. No, you can't do a cost-benefit analysis----
    Mr. Bridenstine. --can you keep the standards the same?
    Ms. McCarthy. Oh, absolutely.
    Mr. Bridenstine. Okay. So you don't have to update the 
standards? You can review them and keep them the same? You 
agree with that?
    Ms. McCarthy. Just have them updated by current science. It 
could result in exactly the same standard.
    Mr. Bridenstine. So when you're doing your advocacy, some 
of us are concerned that you're using different language than 
the language you use when you testify here. So when you did 
your op-ed in CNN Money and you said you have to update the 
standards, that's different than review the standards, which is 
what's required by law every five years.
    Ms. McCarthy. If you see it that way, sir, I'll try to be 
more careful.
    Mr. Bridenstine. Okay. Thank you for that.
    We have heard testimony before this Committee that your 
agency's proposed ozone NAAQS rule will be the most expensive 
regulation in American history. In light of the Supreme Court's 
ruling and Michigan v. EPA, when can we expect the EPA to 
withdraw its proposed ozone NAAQS rule since economic costs 
were not properly taken into account and properly prioritized 
when formulating the rule?
    Ms. McCarthy. We will be moving ahead to finalize the rule 
no later than October 1 of this year by a court order.
    Mr. Bridenstine. So are you suggesting that you are not 
going to withdraw the proposed ozone rule?
    Ms. McCarthy. I am--have--am not now intending to withdraw 
the rule. I believe we have done the proper----
    Mr. Bridenstine. Has the cost-benefit analysis been 
properly taken into account?
    Ms. McCarthy. We've believe we've properly done our 
Regulatory Impact Analysis, yes.
    Mr. Bridenstine. Okay. I think it's clear that we'll have 
to start over from the beginning given the Supreme Court's 
ruling.
    With that, I'm going to go vote but I would recognize the 
Ranking Member.
    She has departed so I will recognize Mr. Johnson for five 
minutes.
    Mr. Johnson of Ohio. Well, thank you, Mr. Chairman. And, 
Director McCarthy, thank you for--or, Administrator McCarthy, 
thank you for being here.
    Let's--when we ended with the last round, you assured me 
that you had never been--never attended a Goo Fest. Are you 
familiar with the Goo Fest?
    Ms. McCarthy. I'll be very honest with you. I got the very 
last invitation. I was--the one that you just showed I think 
was----
    Mr. Johnson of Ohio. Yeah.
    Ms. McCarthy. --the only--one and only one I ever received 
a----
    Mr. Johnson of Ohio. Okay, great.
    Ms. McCarthy. --and I did not respond.
    Mr. Johnson of Ohio. Would you agree, though, that the EPA 
Director of Policy--I mean this is the person that directs the 
development of policy--having a personal, private relationship, 
a social relationship at a thing called Goo Fest shows that the 
EPA--critical members of the EPA have a close relationship with 
these outside third-party organizations, right?
    Ms. McCarthy. Sir, I don't think that----
    Mr. Johnson of Ohio. Is there any denying that?
    Ms. McCarthy. I do not think that people are precluded from 
having friends in every walk of life.
    Mr. Johnson of Ohio. Well, I don't think so either but----
    Ms. McCarthy. I hang out with----
    Mr. Johnson of Ohio. --but these are people that are 
influencing policy. We've already established, Ms. 
Administrator, that you've asked this group to do policy papers 
for the EPA and now you've got the EPA Policy Director in 
social settings with these folks. Let's go on. Let's go for 
slide 3.
    Ms. McCarthy. But their ethics policies that----
    Mr. Johnson of Ohio. Let's go for slide 3.
    [Slide.]
    Mr. Johnson of Ohio. In another email, Madam Administrator, 
from Tiernan Sittenfeld, currently the Senior Vice President 
for Government Affairs at the League of Conservation Voters. 
I'm going to show you some more evidence----
    Ms. McCarthy. Okay.
    Mr. Johnson of Ohio. --that demonstrates this inappropriate 
relationship. Ms. Sittenfeld thanked Mr. Goo for inviting her 
to Goo Fest writing, ``As always, I had a great time.'' 
According to the White House visitor logs, Ms. Sittenfeld has 
visited the White House some 71 different occasions. 
Administrator McCarthy, how many times have you been to the 
White House?
    Ms. McCarthy. A lot.
    Mr. Johnson of Ohio. A lot. More than 71 times?
    Ms. McCarthy. I don't know. I doubt it.
    Mr. Johnson of Ohio. You don't know? Okay.
    Ms. McCarthy. I doubt it.
    Mr. Johnson of Ohio. Well, I--she's been 71 times. Are you 
surprised----
    Ms. McCarthy. I think she's older than I am.
    Mr. Johnson of Ohio. Well, could be. I don't know. That'd 
be good for both of us I think. Are you surprised that Ms. 
Sittenfeld has visited the White House on--71 times?
    Ms. McCarthy. I don't even know the woman.
    Mr. Johnson of Ohio. Well, okay. Well--but you know the 
position that she holds because I just told you that. She is 
the Vice President for Government Affairs at the League of 
Conservation Voters. Would you say that environmental groups 
have a close relationship with the White House and if the 
Senior Vice President for Government Affairs of the League of 
Conservation Voters has visited there 100 times--close to 100 
times or 71 times it----
    Ms. McCarthy. I really do not know. That is a very big 
organization.
    Mr. Johnson of Ohio. Okay. All right.
    Ms. McCarthy. I have no idea how many times she would go 
there.
    Mr. Johnson of Ohio. Well, let's go to slide #4.
    [Slide.]
    Mr. Johnson of Ohio. According to news reports and emails 
obtained by the Committee, Mr. Goo, back to the Director of 
Policy, apparently attempted to skirt transparency. You talked 
about how transparent your rulemaking process is. Tried to 
skirt transparency and his ties to environmental groups by 
arranging meetings with the NRDC at the Starbucks in the J.W. 
Marriott Hotel on Pennsylvania Avenue close to the EPA in an 
effort to prevent participants of the meetings from signing in 
at the EPA building and creating public records.
    Is it appropriate in your opinion for an EPA employee, 
particularly the Director of Policy, to schedule meetings with 
outside groups attempting to influence the Agency's policy 
decisions at a Starbucks instead of inside of the EPA?
    Ms. McCarthy. Sir, I do not know anything about what was 
being attempted.
    Mr. Johnson of Ohio. Okay. All right. Somewhere along the 
line, Madam Administrator, the buck stops here, you know?
    Ms. McCarthy. Yeah.
    Mr. Johnson of Ohio. Why do you think Mr. Goo, the EPA's 
Policy Director, set up such a meeting at Starbucks instead of 
the Agency? Any idea?
    Ms. McCarthy. I would not want to guess.
    Mr. Johnson of Ohio. Well, I think the American people, 
Madam Administrator, want to know what it says about the EPA's 
relationship with outside groups if agency officials set up 
private meetings at coffee shops instead of at their office. I 
think the American people are very concerned about the cozy 
relationship between the EPA and these outside advocacy groups.
    And I want to say one more thing while I've got just 
another minute or so. I've heard repeated this morning, and 
you've even echoed it, how other countries around the world 
have made much more progress in reducing carbon emissions and 
becoming greener with investments in renewables. I just came 
from a visit to Europe and I would encourage you to go talk to 
some of our European friends. You might be shocked, Madam 
Administrator, to find out that some of our European friends 
are actually increasing their mix of coal in their energy 
profiles.
    And when we asked them why they're doing that because, you 
know, they've got this--they've got a big carbon emission 
reduction to do by 2030 as well. I asked the President of the 
Energy Union, I said how are you going to accomplish this? And 
why are you going to a higher mix of coal? He said our 
ratepayers are businesses and our residential customers have 
reached the tipping point. They're no longer willing to pay 
these exorbitantly high prices in energy costs. It's making us 
noncompetitive in the world's economy.
    Madam Administrator, that's what your agency is doing----
    Ms. McCarthy. No, sir.
    Mr. Johnson of Ohio. --to our country by not considering 
the economic implications of the rules that you make. The 
Supreme Court has just ruled that it's unreasonable for the EPA 
to take that position so I would remind you of that.
    And with that, Mr. Chairman, I'll yield back.
    Mr. Bridenstine. I thank the gentleman for yielding.
    We have a number of Members that have more questions to ask 
in representation of their districts, so with that, we will 
stand in recess subject to the call of the Chair.
    [Recess.]
    Mr. Loudermilk. [Presiding] The Committee on Science, 
Space, and Technology will reconvene. Thank you for the short 
recess so some of our Members could vote.
    At this time the Chair recognizes Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    Administrator McCarthy, I think you made a point that cost 
was not a major consideration at one point in your testimony. 
Do you not think that considering the link between income and 
health costs and the number of jobs that we lost and the 
preponderance of evidence that we're losing jobs and companies 
because of overregulation, do you not think that we should take 
into consideration cost? Would you--thank you.
    Ms. McCarthy. I believe that jobs and the economy are 
tremendously important and need to be considered. I want to 
just make sure we understand each other. I said in the 
development of an ozone standard the law--and it's been told to 
us by the courts--precludes us from looking at cost. It's a 
health-based standard. That does not mean we do not look at 
cost in the implementation phase.
    Mr. Palmer. I realize that in the recent Supreme Court 
decision involving the Mercury rule, that those are different 
statutes, but at the same time, though, I think the point made 
in the Supreme Court decision that it's unreasonable to apply 
regulations without taking into consideration the cost and the 
economic impact should be relevant to the discussion we're 
having about ozone, about----
    Ms. McCarthy. Yeah.
    Mr. Palmer. --the Clean Power Plan, about the Waters of the 
United States. And I would really encourage the EPA to be more 
conscientious in that regard and particularly in the context of 
how it impacts low-income families.
    I got a little animated earlier. I was out of time. I'm 
happy to have--to have this second round of questions-
    Ms. McCarthy. -Yeah.
    Mr. Palmer. --to make that connection but--and it's 
particularly important in the context of how it impacts 
minorities. And I talked about the report from the Black 
Chamber of Commerce--the National Black Chamber of Commerce, 
but also the Southern Christian Leadership Council, which I 
believe was founded by Martin Luther King or he cofounded it. 
Their President testified to the same effect, that what the EPA 
is doing is going to have a disproportionate impact on black 
and Hispanic families. And I would say across the board all 
low-income families are going to suffer tremendous harm from 
these regulations.
    And what bothers me about this more than anything else is 
the reluctance of the EPA to hand over the scientific research 
for peer review. The reports that I've entered into the record 
have been peer-reviewed, okay? I don't--I think that we need 
total transparency here. You know, we talk--you talk about what 
you want to do in the context of a cleaner environment. You 
made this point that the GDP has gone up since----
    Ms. McCarthy. Yes.
    Mr. Palmer. --the Clean Air Act in 1970. More specifically, 
since 1980 GDP has gone up 467 percent. Vehicle miles traveled, 
which vehicle emissions contribute to ozone, have gone up 94 
percent. Population has increased by 38 percent. Energy output 
has gone up 22 percent but emissions have gone down 50 percent. 
I made this point in a previous hearing that the air is 
demonstrably cleaner than it's been in 50 or 60 years, yet we 
continue to see an increase in respiratory illnesses, 
particularly asthma.
    So my point you is is that this is a bridge too far. I 
think the EPA needs to scale this back. I think you need to 
first allow the states to implement the 2008 standards. They 
were already in the process. They were waiting on input from 
the EPA for their State Implantation Plans. So I think this is 
clearly a bridge too far. I'm very concerned about the 
collaboration that the EPA has, the--I think the over-
involvement of outside groups because it appears to be agenda-
driven and not sound public policy.
    With that, Mr. Chairman, I'll yield the balance of my time.
    Mr. Loudermilk. The gentleman yields back.
    At this time I'll recognize myself for five minutes for 
questions.
    And thank you again for being here with us, especially as 
long as we've been here. But----
    Ms. McCarthy. Thank you.
    Mr. Loudermilk. --to have the rare opportunity to have you 
here, a lot of people have a lot of questions and there is a 
lot of distrust of government in general and especially of your 
department. Let me--there were a couple of questions that we 
were just getting into when time ran out so let me recap this. 
I showed you an email to where the OMB initially stated that 
the Waters of the United States would be well above the $100 
million trigger of economic impact. However, then there was 
slide 2, which was the second one, if we could bring that back 
up.
    [Slide.]
    Mr. Loudermilk. We were just getting into this email to 
which after the Office of Management and Budget said it was 
well above the $100 million impact, which would have required 
an RIA. This email said that--Jim Pendergrass, Water employee--
Office of Water employee said, ``Nancy and Ken know that a 
Regulatory Impact Analysis may be necessary but there are some 
economically significant rules from EPA that haven't had an 
RIA. They are checking with the Office of Policy to see if 
there was some agreement at the political level that we don't 
need it to conduct an RIA.''
    The response to this email then states, ``Good news. Tamika 
and Sandy talked to Ken and Ken said it has been agreed that we 
do not need an RIA. Let's leave it at that.''
    So this email appears to show that EPA made a political 
decision not to conduct the RIA that we know is required if OMB 
estimates that it's about $100 million impact, which from the 
first email said it was well above, not just above, not 
marginal, but well above.
    Ms. McCarthy. I----
    Mr. Loudermilk. Who made that decision?
    Ms. McCarthy. I apologize, sir. During the break I was able 
to check back in the office. It was actually determined to be a 
major rule because it did not have direct but it did have 
sufficient indirect costs and an RIA was conducted.
    Mr. Loudermilk. An RIA was conducted?
    Ms. McCarthy. Yes, it was done. It was determined to be a 
major rule so there was no behind-the-scenes work. That was 
banter back and forth between the staff.
    Mr. Loudermilk. From what I understand you conducted an 
economic analysis, not an official RIA but you're stating that 
there was an official RIA done?
    Ms. McCarthy. My understanding is it was treated as a major 
rule. Apparently I misspoke when I said RIA. It was an economic 
analysis----
    Mr. Loudermilk. Okay.
    Ms. McCarthy. --but it was a major rule.
    Mr. Loudermilk. So the question is Executive Order requires 
you to do an RIA if it's above $100 million, which originally 
the OMB said it was above $100 million, but your office chose 
not to do an RIA but do another analysis. And according to the 
email, that was a political decision made. My question is who 
made the decision to not go forward?
    Ms. McCarthy. Sir, this decision was--obviously OMB made 
the decision because they have to sign off on the rule and 
ensure that it meets all of the policies and the requirements. 
So I don't know anything more than what you're telling me.
    Mr. Loudermilk. Did the EPA----
    Ms. McCarthy. We did the economic analysis.
    Mr. Loudermilk. According to the emails, that really leads 
us to believe that someone at EPA went back to OMB and asked 
them to reassess whether or not this was significant, if there 
was a significant impact. And----
    Ms. McCarthy. And in this case it was determined to be a 
major rule and an economic analysis had to be done.
    Mr. Loudermilk. But not an RIA, which is required. What I'm 
getting at is there's a lot of distrust and we're having a hard 
time building some trust here.
    Ms. McCarthy. Yeah. I apologize, sir. I'm happy to get back 
to you but my understanding is that this rule did not have 
direct costs so it was allowed to do an economic analysis 
because it would have been difficult to know how you would have 
done a broader RIA when it had no direct costs----
    Mr. Loudermilk. Well, one of the reasons we have OMB is 
because I think if left to EPA nothing would--and in fact the 
email says that you guys have done other rules that you know 
are significant----
    Ms. McCarthy. I don't know what they're referring----
    Mr. Loudermilk. --but you didn't do an RIA so----
    Ms. McCarthy. I haven't seen that. I don't know what 
they're referring to. I'm telling you what's in the record----
    Mr. Loudermilk. Okay. Well----
    Ms. McCarthy. --and I'm more than happy to share what we 
did.
    Mr. Loudermilk. --I would really appreciate if you could 
get back, and I would like to know who at EPA contacted OMB and 
asked them to change their analysis to go from well above $100 
million to where it wasn't needed. Did that come from the White 
House? Did that----
    Ms. McCarthy. I am more than happy to get you the 
explanation as to why this satisfied OMB and why that 
decision----
    Mr. Loudermilk. Can you tell me when we'll have that 
information?
    Ms. McCarthy. I'll go back and find out--I'll do the best I 
can to get it to you right away.
    Mr. Loudermilk. We'd like to know who made that--who made 
the political decision----
    Ms. McCarthy. There was no political--as far as I know, 
sir, this is----
    Mr. Loudermilk. Well, according to your own emails, it was 
a political decision and it was said let's leave it at that. 
Apparently they didn't want us to know.
    Ms. McCarthy. I'm just happy----
    Mr. Loudermilk. But I see I'm out of time.
    Ms. McCarthy. I'm just happy to give you information as to 
why this was the appropriate way to meet our policies and 
obligations.
    Mr. Loudermilk. Thank you.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Moolenaar.
    Mr. Moolenaar. Thank you, Mr. Chairman. And thank you for 
continuing to stay with us on this.
    I just wanted to follow up on some questions about the 
ditches that we were talking about----
    Ms. McCarthy. Oh, Lord. Okay.
    Mr. Moolenaar. --and do you----
    Ms. McCarthy. Ditches have become my favorite----
    Mr. Moolenaar. Well, you know, I think your goal was 
clarity but there is a lot of confusion out there. And, you 
know, I guess the question I have is do you anticipate that a 
farmer, a business, or a local government would not face legal 
action for not applying for a federal permit because they 
believed their ditches were exempt? So in other words if 
someone believes sincerely that their ditch is exempt, will 
they not face legal action or would at some point the EPA rule 
differently?
    Ms. McCarthy. Well, people are expected to know that if 
there is a question, they should ask, but EPA and the Army 
Corps are not in the business of going around and--as you're 
implying, and chasing people for this. It really is a matter of 
trying to provide clarity. The farmers and ranchers I know care 
about drinking water as much as I do. They're not interested in 
polluting or destroying.
    Mr. Moolenaar. Right.
    Ms. McCarthy. They're interested in maintaining that for 
their benefit and their own kids, so this isn't an opportunity 
to do anything more than give them more tools and more 
certainty.
    Mr. Moolenaar. Okay.
    Ms. McCarthy. And the process will continue to work as it's 
always worked.
    Mr. Moolenaar. Would you be willing to clarify that in 
statute? Because what you're telling me today is your 
interpretation of the rule, and someday someone else will be in 
your position. Many people throughout the country will be 
implementing this rule and will have different opinions on 
that. And even though you say they won't be chasing people 
around, there is an enforcement obligation that actually does 
lead them to chasing people around. And so my question is would 
you be willing to clarify that in statute so there's no 
ambiguity on that?
    Ms. McCarthy. I don't know what I'm clarifying here, sir. 
All I'm telling you is how the current system works, which is 
people are obligated to ask when there is a concern and it's a 
marginal call. They're supposed to know they have to protect 
those waters. We've made it as clear as we possibly can what 
waters should be protected. They should use their judgment, ask 
if they're uncertain, and everything will be okay.
    Mr. Moolenaar. Well, I'm going to continue to try and work 
with you on this because----
    Ms. McCarthy. All right.
    Mr. Moolenaar. --your goal----
    Ms. McCarthy. I'd be happy to do that.
    Mr. Moolenaar. --is clarity but there is a lot of confusion 
out there, and when there's a lot of confusion, it's going to 
result in a lot of unintended consequences for costs for 
people----
    Ms. McCarthy. Yeah.
    Mr. Moolenaar. --and legal interpretations, consultant 
fees.
    Ms. McCarthy. Sir, one of the things we're doing which 
might be of interest and I'd be happy to work with you on it is 
we're trying to develop a question-and-answer for folks that 
are asking questions so that it's available to them and it 
helps guide them if there's a lack of clarity.
    Mr. Moolenaar. Okay.
    Ms. McCarthy. But we'll never get 100 percent clear but I 
think we tried to get as far along as we could in making it is 
clear as possible so they can do their business without 
concern.
    Mr. Moolenaar. Okay. Thank you. And I want to follow up 
with you. Some of your comments I can tell you are a person on 
a mission. The planet is something--I read a quote--one of your 
quotes from the forum on U.S. Energy and Climate Policy, the 
Christian Science Monitor forum----
    Ms. McCarthy. Okay.
    Mr. Moolenaar. --where you talked about ``there are a lot 
of things that I worry about. I worry about the obligations I 
have to the planet.'' Do you remember that----
    Ms. McCarthy. Well, we actually----
    Mr. Moolenaar. --statement?
    Ms. McCarthy. It was actually kind of a fun moment. They 
asked me what I would do if I had all the time in the world and 
I explained I'd hang out with my children more but after I deal 
with the planet. It was sort of I think humorous.
    Mr. Moolenaar. Okay. Well, I just--because it does--when 
you talk about moral obligations----
    Ms. McCarthy. Um-hum.
    Mr. Moolenaar. --and you talk about climate change----
    Ms. McCarthy. Yeah.
    Mr. Moolenaar. --it does have sort of the appearance of 
almost a religious fervor about this. And I guess one of the 
things I would like you to consider because I know you're very 
passionate about this, but if some of the analysis is accurate 
in terms of the economic costs----
    Ms. McCarthy. Yes.
    Mr. Moolenaar. --you have a background in public health----
    Ms. McCarthy. Yes.
    Mr. Moolenaar. --I would like you to consider the public 
health impact when it comes to people losing their jobs, having 
lower incomes, depression, suicide, people who are unable to 
pay for the medications because they are out of work. And these 
are the realities of these kinds of, in my view, draconian 
regulations that may have certain intended effects but actually 
have unintended consequences that I think are very troubling. 
So I'd ask you to think about those things.
    I see my time is expired, and thank you, Mr. Chairman.
    Mr. Loudermilk. Thank you. And unfortunately, there's going 
to be more procedural motions on the Floor, and since all 
Members have asked questions, I know you're going to hate to 
hear this, but----
    Ms. McCarthy. Oh, no.
    Mr. Loudermilk. --we're going to go ahead and adjourn. But 
thank you so much for being here, and the Committee on Science, 
Space, and Technology is adjourned.
    Ms. McCarthy. Thank you very much.
    Mr. Loudermilk. Thank you.
    [Whereupon, at 1:08 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                              Appendix II

                              ----------                              


                    Slides submitted during hearing
                    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix III

                              ----------                              


                   Additional Material for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Please visit the following link to view the complete report: http:/
/nbccnow.org/wp-content/uploads/2015/06/NBCC_ozone__FInal.pdf

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
